<html>
<title> - AN UPDATE ON NORTH KOREAN NUCLEAR DEVELOPMENTS</title>
<body><pre>[Senate Hearing 108-412]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-412

             AN UPDATE ON NORTH KOREAN NUCLEAR DEVELOPMENTS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 21, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



92-962              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4
Brownback, Hon. Sam, U.S. Senator from Kansas, article submitted 
  for the record entitled ``Food Aid to North Korea Stalls,'' 
  from CNN.com, January 20, 2004.................................    37
Hecker, Dr. Siegfried, senior fellow, Los Alamos National 
  Laboratory, Los Alamos, NM.....................................     7
    Prepared statement...........................................    20
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

                                 (iii)

  

 
             AN UPDATE ON NORTH KOREAN NUCLEAR DEVELOPMENTS

                              ----------                              


                      WEDNESDAY, JANUARY 21, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:05 a.m. in room 
SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Brownback, Sununu, Biden, and 
Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.


          opening statement of hon. richard g. lugar, chairman


    Today, the Senate Foreign Relations Committee will receive 
testimony on the observations of Dr. Siegfried Hecker, senior 
fellow at Los Alamos National Laboratory, following his January 
8 tour of the Yongbyon nuclear facility in North Korea. This 
facility has been closed to outsiders since December 2002. 
Yesterday, Dr. Hecker briefed this committee on his 
observations, in closed session. He has briefed members of some 
executive branch agencies already, and he is scheduled to brief 
additional administration officials at the State Department 
later today.
    The crisis surrounding North Korea's nuclear program has 
been the subject of six-way talks between the United States, 
Russia, Japan, China, South Korea, and North Korea. The 
administration and our allies understand the importance of 
these talks for regional stability and global security. The 
United States has consulted closely with other countries in the 
region in an effort to make these talks productive.
    China has emerged as the pivotal country because of its 
links to the North Korean regime. The continued cooperation of 
China as an intermediary in the six-way talks is essential, and 
the administration is working hard to solidify Chinese support 
for mutual objectives.
    In December, the committee requested administration 
testimony on the six-way talks and was assured that either 
Secretary Powell or Assistant Secretary James Kelly would 
oblige the request when Congress returned to session. 
Therefore, at an early date, our committee intends to hold 
another hearing, at which we will examine the progress of the 
six-way talks and the administration's policies toward North 
Korea.
    Even as we attempt to achieve our objectives through the 
six-way talks, the United States must continue to refine its 
analysis and options related to North Korea. As this analysis 
occurs, we should keep in mind several factors. First, the 
central, overriding interest of the North Korean regime is in 
its own survival. Second, given their lack of friends and their 
dysfunctional economy, North Korean leaders increasingly 
perceive that their backs are to the wall. Third, recent 
events, including the ousters of Saddam Hussein and the 
Taliban, and even the voluntary opening of Libya's nuclear 
program, have pressurized the geopolitical environment for 
North Korea. Fourth, although there is still ambiguity 
surrounding the precise configuration of North Korea's nuclear 
program, the North Korean regime sees this program as the 
primary means through which it can protect and perpetuate 
itself. These realities combine to create a dangerous situation 
that requires focused attention by the United States and our 
allies.
    North Korea's nuclear program is at odds with American 
national security. Our goal must be to stop and ultimately 
dismantle the North Korean nuclear weapons program, as well as 
its biological and chemical weapons programs, while preventing 
the transfer of weapons or dangerous materials and technology 
to other groups and to other nations. To achieve this 
objective, we should not rule out any option, including, as a 
last resort, the use of force.
    Last year, President Bush announced his willingness to 
pursue a non-aggression pact with North Korea in the context of 
the elimination of North Korea's nuclear program. On January 9 
this year, in an interview with a Japanese television station, 
Secretary Colin Powell underscored the administration's efforts 
to achieve a peaceful solution in North Korea. He stated, and I 
quote, ``President Bush has made it clear that he wants to find 
a political, diplomatic solution to this challenge, and I think 
we can. If we were interested in the military option, we 
wouldn't have gotten the six-party talks organized. The United 
States does not seek war. We are not looking for enemies. We 
are seeking to solve problems, problems of the kind presented 
by North Korea's nuclear weapons programs.''
    As one of the authors of the Nunn-Lugar program, which has 
succeeded in safeguarding and destroying thousands of nuclear 
weapons and their delivery vehicles in the former Soviet Union, 
I am more optimistic than some about disarmament initiatives 
focused on implacable enemies. Late last year, Congress passed 
the Nunn-Lugar Expansion Act, which broadens the Defense 
Department's authority to provide cooperative disarmament 
assistance outside the former Soviet Union. If we maintain 
alliance cohesion and American resolve and apply creative 
diplomacy and disarmament tools to the situation on the Korean 
Peninsula, we can achieve our goals.
    In this context, we welcome Dr. Hecker's testimony. As a 
former director of the Los Alamos National Laboratory, Dr. 
Hecker possesses extraordinary expertise related to the 
construction and operation of nuclear programs and facilities. 
Two of the central issues related to North Korea's nuclear 
activity are whether 8,000 spent fuel rods stored in the 
Yongbyon facility have been reprocessed--with plutonium 
extracted from them--and whether North Korea has a highly 
enriched uranium program.
    Before we turn to these questions, however, I would like to 
underscore the work done by our committee in relation to human 
rights and humanitarian issues in North Korea. This has been a 
particular interest of Senator Biden and myself, as well as 
other members of the committee, including the East Asian and 
Pacific Affairs Subcommittee chairman, Senator Brownback. The 
visit of Dr. Hecker and the Stanford delegation to the Yongbyon 
site, understandably, has gained international attention. Keith 
Luse and Frank Jannuzi, professional staff of the committee, 
were in North Korea and accompanied Dr. Hecker and the Stanford 
delegation to the Yongbyon facility.
    However, Mr. Luse and Mr. Jannuzi traveled to North Korea 
with additional agenda items. They met with high North Korea 
officials to discuss the deplorable conditions of the North 
Korean prison system, the harsh treatment of North Korean 
refugees, food scarcity in North Korea, and the matter of 
Japanese citizens abducted by North Korean agents since the mid 
1950s. Mr. Luse and Mr. Jannuzi have briefed Senator Biden and 
me on these issues, and they will be issuing a comprehensive 
report \1\ on their findings in the near future. In addition, 
they briefed executive-branch officials in both Beijing and 
Washington.
---------------------------------------------------------------------------
    \1\ A copy of the report, ``North Korea: Status Report on Nuclear 
Programs, Humanitarian Issues, and Economic Reforms,'' February 2004, 
S. Prt. 108-40, can be obtained from the Senate Foreign Relations 
Committee or accessed on the committee's Web site at: 
www.access.gpo.gov/congress/senate
---------------------------------------------------------------------------
    At this time, I would like to highlight a couple of the 
most urgent human rights issues. North Korean refugees seeking 
food and shelter continue to cross the border into China. 
Unfortunately, China has not yet allowed the United Nations' 
High Commissioner for Refugees to establish assistance centers.
    In September 2003, I wrote to United Nations Secretary 
General Kofi Annan, asking for a written response outlining 
steps taken by the United States High Commissioner of Refugees 
to gain access to China and to assist North Koreans. Based upon 
the UNHCR response and after consultation with experts familiar 
with the refugee situation, I am hopeful the Bush 
administration is actively encouraging the Chinese to meet 
their international obligations so that North Koreans in need 
of protection in China may be assisted by the UNHCR.
    A 2003 report by the U.S. Committee on Human Rights in 
North Korea \2\ has documented the existence of two distinct 
prison systems in North Korea. That country maintains a gulag 
of forced-labor camps and prisons where, according to the 
report, ``scores of thousands of prisoners--some political, 
some convicted felons--are worked, many to their deaths, in 
mining, logging, farming, and industrial enterprises.'' The 
report documents a second penal system composed of detention 
camps near the border with China that are used to mete out 
punishment to North Koreans who are caught attempting to flee 
to China, or who are forcibly returned to North Korea by the 
Chinese authorities.
---------------------------------------------------------------------------
    \2\ The report can be accessed at the U.S. Committee on Human 
Rights in North Korea Web site: www.hrng.org
---------------------------------------------------------------------------
    This dual system of repression must be eliminated. The 
United States should press the North Koreans and the Chinese 
continuously on this point. We also should insist that a survey 
of food needs within the two prison systems be conducted by the 
United Nations or a non-governmental organization familiar with 
North Korea.
    The points I've outlined related to North Korea represent a 
sizable agenda for oversight activities of our Senate Foreign 
Relations Committee. We are pleased to continue our inquiries 
today with the benefit of these very special insights from Dr. 
Hecker.
    Before calling upon our witness, I'd like to call upon the 
distinguished ranking member, Senator Biden, for opening 
comments he may have.


            OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                             RANKING MEMBER


    Senator Biden. Mr. Chairman, thank you very much.
    Let me say, to use the jargon of the Senate, I associate 
myself with the remarks that you've made, particularly the 
efforts of our staff persons in the report about to be filed.
    But today, at least, I'm going to focus most directly on 
the testimony of Dr. Hecker and his visit to North Korea. 
There's been an awful lot of speculation in the media about his 
visit, and the delegation's visit, to Yongbyon nuclear complex, 
and today we're going to get to hear directly, in open session, 
the findings and impressions that Dr. Hecker came away with.
    Many of us had an opportunity to meet with Dr. Hecker 
yesterday, and I can tell you, doctor, from the discussion with 
my colleagues on the committee, Democrat and Republican alike, 
the consensus was it was one of the most informative meetings 
that this committee has held, ever. And I think it was because 
you have the rare and unique capacity, as a man who's one of 
the best-known scientists--and probably there's very few people 
in the world that know more about plutonium than you do--to be 
able to translate that to a group of educated women and men, 
but most of whom are not physicist or scientists, and for us to 
understand what's at stake here.
    I'm going to be a little didactic today in my questions, 
like I was yesterday, I think I can ask many of them in open 
session today--because, quite frankly, as policymakers and 
participants in the execution of American foreign policy, it's 
really important that we know the difference, for example, 
between highly enriched uranium and plutonium. And someone 
would say, well, why would you have to know that? That's 
irrelevant. Well, it's very relevant. It was relevant, in terms 
of our great concern about the prospect of the North Koreans 
providing plutonium on the black market, selling it to al-
Qaeda, to terrorist groups. How usable is it? How would it be 
transported? Is it able to be detected? There's a great deal of 
discussion among--in the media and by policymakers about 
whether or not light water reactors or the old reactor we're 
going to talk about today, the five-megawatt reactor, or the 
50-watt reactor, the 200-megawatt reactor. What's the 
difference? What difference does it make? Does it matter that a 
country goes one route versus the other? And does it increase 
the prospects of the difficulty of us being able to 
independently verify an agreement, if an agreement is reached, 
about cessation of programs.
    And so I warn you, doctor, I'm going to go through that 
same exercise, in part, we did yesterday--and I'll be guided by 
the chairman and you--if you think anything remotely approaches 
anything that's classified for us to talk about, I'm not going 
to do that, but I think it's important for us to understand the 
context of these large foreign-policy discussions that we have 
here.
    Three years ago, along with the chairman, I urged the Bush 
administration to test North Korea's commitment to peace by 
putting a serious proposal on the table. No one knows if North 
Korea--I certainly don't know, and I know you're not even going 
to speculate today, because you're a scientists here, you're 
not a diplomat, you're not a foreign-policy expert, you're not 
a Korean expert. But the truth is, I don't have any idea, even 
if we do everything the right way, if the Lord Almighty came 
down and said, ``This is the way you should deal with North 
Korea,'' I'm not at all sure North Korea, under any 
circumstance, is willing to yield its nuclear capacity, its 
nuclear capability, for any deal. I think they are, but I don't 
know. And no one knows if they're prepared to abandon the 
pursuit of nuclear weapons. And, frankly, it may prove 
impossible to convince North Korea to change its path.
    But one thing I do know, and I've known for some time, is, 
we have to try. And, so far--I say this not for your benefit, 
doctor, but for the opening of this whole discussion--and, so 
far, I don't think the administration has made a sufficient 
effort. The outlines of a deal with North Korea, if any is 
possible, were clear 3 years ago, and they're clear today. 
North Korea must fully and irreversibly and verifiably abandon 
its pursuit and possession of nuclear weapons and the 
production of intercontinental ballistic missile capability and 
the sale of ballistic missiles. If North Korea commits itself 
to this path, the United States and its allies should stand 
ready, and the President has made a tentative offer in this, to 
offer security assurances, sanctions relief, and normal 
diplomatic relations matching, action for action, and word for 
word.
    President Bush has already pledged that the United States 
is prepared to offer security assurances to the North, but the 
details of any new non-proliferation framework with North Korea 
have yet to be worked out.
    My concern today is much the same as it was 3 years ago. As 
North Korea's nuclear capability grows, there is an ever-
growing risk that North Korea might choose to export 
capability, either in the form of fissile material or 
technology. As North Korea's nuclear arsenal grows, there's 
also a real and growing risk of a war on the Korean Peninsula 
arising out of miscalculation and miscommunication. There's 
clearly the possibility of us losing a dream and a hope of most 
of the nations of the world of having a nuclear-free Korean 
Peninsula. I predict if we cannot stem this rise, it's not 
going to be very long before Japan and South Korea decide they 
have to be nuclear powers. That will change the entire dynamic 
with regard to Chinese notions of what their needs are. That 
will, in turn, impact on India's nuclear decisions and 
capabilities and what they think they need. That, in turn, will 
impact on Pakistan. We can end up in a very, very, very much 
more dangerous world than we have now if we do not make a full-
blown effort to see whether or not we're able to reach an 
agreement.
    As we'll learn today, North Korea's not been idle during 
the 13 months since it kicked out international inspectors and 
restarted its facilities at Yongbyon. In fact, North Korea 
appears to be well along the path toward becoming a full-
fledged nuclear-weapons state. Convincing North Korea to change 
course will not be easy--it requires a combination of sticks 
and carrots--but we must make plain the dangers of its current 
path, especially our complete intolerance for any form of 
nuclear exports from North Korea, but we must also hold out the 
promise of a different future if North Korea verifiably 
abandons its pursuit of nuclear weapons and its export of 
ballistic missiles.
    We have done an OK job in communicating the risks; but, 
quite frankly, I think we've done a poor job in defining the 
alternatives for the North Korean people. We have had almost no 
dialog with North Korea, holding just three meetings in 3 
years, all of them coming too late and without much little 
product.
    At the most recent round of the six-party talks in Beijing, 
last August, the United States and North Korean officials held 
a total of 40 minutes of direct talks--not enough to make much 
headway. You have spent more time, and the delegation has spent 
more time, in serious discussion than all our negotiators have 
in direct talks up to now.
    So I'm eager to hear your testimony, doctor, and, to state 
the obvious, but maybe not to everyone, you are one of the 
world's premier nuclear scientists, with an extensive 
international experience with nations of the former Soviet 
Union and China, and I can think of no one that we should--that 
we'd be happier to have here today than you. And what impressed 
me yesterday, in the closed hearing, quite frankly, was your 
absolute insistence that you would state only what you knew, 
you would not speculate. You said you would not speculate 
today, even though you could make educated guesses. You were 
very rigorous in that approach, and I think it's served you 
well and helped us all a great deal. So I'm anxious for the 
Nation and our colleagues and the press to hear what you have 
to say.
    Without any further comment, Mr. Chairman, I yield the 
floor.
    The Chairman. Well, thank you very much, Senator Biden.
    As all of us have recognized, Dr. Hecker, your testimony is 
especially important, because, for us, you have been a good 
teacher, as well as an observer. Your expertise on the 
technical aspects of plutonium, as well as highly enriched 
uranium, and the specific facilities of North Korea and other 
countries is really very, very important for us to have some 
sort of focused judgment to make recommendations to do the 
oversight that we're charged with doing.
    We welcome you, and we look forward to your testimony. We 
ask you to take whatever time you may require to make a full 
exposition. We understand that this hearing, and your 
participation, must conclude at about 11 o'clock for you to 
meet obligations to brief others, namely at the State 
Department and in our administration, and to meet with the 
press. So we will gauge our question period accordingly, after 
your testimony, to accommodate our members.
    Please proceed.

STATEMENT OF DR. SIEGFRIED S. HECKER, SENIOR FELLOW, LOS ALAMOS 
              NATIONAL LABORATORY, LOS ALAMOS, NM

    Dr. Hecker. Thank you very much, Mr. Chairman, Senator 
Biden. It's an honor to appear before you to talk about this 
very important issue. And also, thank you for your very kind 
words, both of you. I hope I can live up to your expectations.
    Let me first state that I wish to thank Professor John 
Lewis, of Stanford University. Without him, I would have not 
gone to North Korea. Without the relationship that he had 
developed with North Korean officials since 1987, including 
about ten visits, without building up the trust, they would 
have never let me in, and they certainly would not have let me 
in to their nuclear facilities. So it was John Lewis' doing 
that wound up with me going to Yongbyon, as well as my 
colleagues, the rest of the people on the delegation.
    Now, you pointed out, both of you, the seriousness of the 
North Korean nuclear issues. And Senator Biden, as you know, I 
was here 2 years ago, talking about the more global issues of 
my concerns of nonproliferation, and North Korea was certainly 
near the top. At that time, Pakistan was at the top, and, I 
must say, it remains at the top, of my list of concerns today.
    But this issue is very serious. Our government, as you had 
indicated, has stated that it's seeking a peaceful resolution 
to the North Korean nuclear crisis. And my objective, for this 
trip, as a scientist, was to attempt to bring, just as you 
indicated, some clarity to the ambiguities surrounding the 
nuclear issues in North Korea. And, in fact, I told my hosts 
that--the North Korean officials of the Ministry of Foreign 
Affairs--that what I would like to do is to bring some clarity 
to this great ambiguity. And I said to them, I realize some of 
this ambiguity may be intentional, but ambiguities tend to lead 
to miscalculations; and when it comes to nuclear things, 
miscalculations can be disastrous.
    Now, let me briefly state what I viewed as the key issues 
that surrounded the nuclear crisis in North Korea, before we 
went. And, Mr. Chairman, you've already referred to the 
principal one. Actually, they were all surrounded with the 
issues of, what have they done to restart the nuclear program 
that was frozen--particularly nuclear plutonium program--that 
was frozen as part of the Agreed Framework, in 1994?
    And the first principal issue is the one that you 
mentioned, Mr. Chairman, about, what have they done with these 
8,000 fuel rods? Have they, indeed, removed them from the safe 
storage place? And have they reprocessed them to extract the 
plutonium that's grown in during normal reactor operations? And 
it's estimated that the amount of plutonium in those 8,000 fuel 
rods that had been sitting in the reactor while it was 
operating for somewhere between 4, 5, or 6 years is about 25 to 
30 kilograms of plutonium. And, of course, the concern is that 
that plutonium would be used to build nuclear devices or 
nuclear weapons. And so that was the principal concern. Had 
they removed them? And if they removed them what did they do? 
Did they extract the plutonium?
    The second concern was North Korea operating its current 
reactor. Senator Biden, you mentioned the so-called 5-megawatt 
electric nuclear reactor that was used to produce some 
electricity and heat, but also to produce plutonium. They also 
had, under construction, two bigger reactors, a 50-megawatt and 
a 200-megawatt reactor. And the question is, was the 5-megawatt 
reactor operating? How long did they intend to operate it? And 
then, could they scale up by finishing the other reactors? That 
was the second question.
    The third one was, how much plutonium did North Korea 
produce before the IAEA inspectors were allowed to come in? And 
that was in 1992. And then, of course, did they build nuclear 
devices and nuclear weapons with that plutonium?
    And the fourth question is, what's the status of the 
alleged program to enrich uranium? Now, Senator Biden, you 
mentioned that that's an alternative route to nuclear weapons. 
In essence, the two principal routes are: one can make 
plutonium in a reactor, and that plutonium is the key element 
for a weapon; or one can enrich natural uranium, which contains 
only seven-tenths of a percent of the fissionable isotope, or 
what I would call the high-octane isotope, called 235 uranium. 
The rest of it is 238 uranium. So in order to use uranium, 
you'd have to enrich it in 235, and that can be done through 
enrichment processes, which also tend to be very complex. And 
so you either have a reactor to make plutonium, or you have 
enrichment processes to enrich uranium. And the question is, 
what's the status of that program?
    So those were the four key issues. And I will confine 
myself, in my prepared remarks, to these technical issues.
    Senator Biden, you pointed out I'm not a diplomat. I 
certainly----
    Senator Biden. You're pretty good. I didn't mean to imply 
you weren't diplomatic. I just think that what we're focusing 
on today is your scientific background and reputation there. 
That's all I meant.
    Dr. Hecker. So I will, indeed, limit my comments to those 
technical issues.
    I do have a written statement, Mr. Chairman, that I would 
like to enter into the record, which gives a rather detailed 
exposition. And I tried there to very precisely indicate what 
did the North Korean officials tell us about their nuclear 
program, and then what did we see; and, on the basis of what we 
saw, what do I conclude, at this point in time.
    The Chairman. The statement will be published in full.
    Dr. Hecker. Thank you.
    So we visited Yongbyon, what they call the Nuclear 
Scientific Research Center, on January 8. We were there at the 
center from 10:30 until 5 p.m. We were toured through the 
center by the center's leadership. That was impressive, right 
off the bat; they had the director of the entire center. And 
then the facilities we visited, they had the chief engineers 
tour us through those facilities. And that's exactly the right 
thing to do if you'd like to explain to someone what's going on 
in----
    Senator Biden. Why is it important to have the engineers?
    Dr. Hecker. I beg your pardon?
    Senator Biden. Why having the engineers is important, why 
was that----
    Dr. Hecker. Oh, because the chief engineer of a facility 
knows everything that goes on in that facility. The director 
has, sort of, an overview; but if you want to ask the technical 
questions, the chief engineer is the person to explain that, 
and they had the chief engineers for the facilities that we 
visited.
    Senator Biden. Thank you.
    Dr. Hecker. What we saw were the 5-megawatt reactor, a 
drive-by--a couple of times, actually--of the 50-megawatt 
electric reactor construction site--I'll call it that--and then 
we visited the spent-fuel storage area, what's called ``the 
pool''--and I'll explain that in a minute--and then we visited 
the radiochemical laboratory. And we were told we were the 
first American delegation to visit that. I have, since then, 
found out, not only the first American delegation, but the 
first Americans. The IAEA inspectors had been in there, but the 
North Koreans had always been very careful not to let countries 
that did not have diplomatic relations with it to visit that 
facility. But they did, indeed, tour us through there. As I 
said in my written statement--I described that in some detail.
    What I'll try to do now is to summarize to address the 
questions that I posed. And so the first one I'll take directly 
is this issue of the fuel rods, because that's the most crucial 
immediate issue.
    You've already stated, Mr. Chairman, the issue was one of 
the 8,000 spent fuel rods. Let me just explain, for a moment, 
what that means, and then the issue of storage and what the 
Agreed Framework tried to accomplish with those 8,000 spent 
fuel rods.
    The fuel rods in the reactor--and it's the fissioning in 
the fuel rods that provides heat, and that heat is then 
transferred through either electricity or it can make steam to 
provide heat for the town. And, indeed, that's what they did 
say that their reactor did. It turns out, when you fission 
uranium, you make neutrons, and if you have this 238 isotope of 
uranium in the reactor fuel, it will pick up a neutron from the 
fissioning process, and it will turn into plutonium, so it 
transmutes. So what we say, then, is that those fuel rods, the 
uranium fuel rods, will accumulate plutonium during the course 
of operations, and the type of reactor that the North Koreans 
chose is a reactor that turns out to be very good at making 
plutonium. It's, quite frankly, not all that good for making 
heat or electricity. It's an old reactor that's patterned after 
a British reactor that was called Calder Hall. And then, also, 
the French built a number of these reactors. Both of those 
countries have pretty much given up on those reactors, because 
there are better ways to just make plutonium; there are also 
better ways to make electricity.
    However, this reactor has the additional benefit for the 
North Koreans that it can be run with natural uranium. And so 
this is the place where actually those two things get crossed 
over, that if you want to run a light water reactor, you have 
to enrich the uranium a little bit, from seven-tenths of a 
percent to 3 or 4 percent; then you put that in the reactor, as 
fuel. In this kind of a reactor, called the magnox reactor, for 
the fact that it uses magnesium cladding--it's what's called a 
graphite-moderated gas-cooled reactor--it turns out to use 
uranium metal as a fuel, and you don't have to enrich it. And 
the North Koreans have plenty of natural uranium resources.
    Senator Biden. In the ground, in North Korea.
    Dr. Hecker. That's correct, within North Korea.
    They could then mine that, and go ahead and make these fuel 
rods, with a little bit of metallurgy, that turns out to be a 
uranium-aluminum alloy.
    Senator Biden. Could you explain what a fuel rod is? Can 
you give us----
    Dr. Hecker. Yes. So what you do, for the reactor, is you 
actually process this by making little uranium aluminum-alloy 
cylinders, maybe a few centimeters in diameter, a few 
centimeters high. You stack them up in a fuel rod about half a 
meter long. And then you put a cladding around it. And so it's 
like a big, long cylinder. But, again, because of the nature of 
this reactor, the cladding is actually a very complex piece of 
machining. It has cooling fins in it, like your radiator would 
at home in hot-water heating, in order to be able to let the 
heat out so you can extract the heat.
    Senator Biden. So you have this cylinder that's clad, and 
you drop these pellets in.
    Dr. Hecker. And then you take these fuel rods, half a meter 
long, the magnesium alloy, and then you stack those up, all 
8,000 of them, in the core of the reactor. So that's what was 
in the reactor, and that was in there in 1994. It had been 
operating, producing whatever, including plutonium. And then, 
through the Agreed Framework, the decision was that those fuel 
rods now would be taken out and attempted to store safely and 
securely. That was part of the deal. And, actually, part of the 
deal was also that by the time that the KEDO organization would 
provide light water reactors for North Korea, those fuel rods 
would then actually be shipped offsite, away from North Korea. 
So it was important to make sure those fuel rods are someplace 
where they're safe and then can be taken out.
    Senator Biden. Because, figuratively speaking, the bottom 
of these rods is the plutonium that you extract.
    Dr. Hecker. No, it's not in the bottom; it's all 
throughout, uniformly, so--because every atom that's in there, 
of 238, when it sees a neutron, will turn into plutonium. So--
and I'll get to that later--extracting that plutonium is not 
all that easy, but it takes good chemistry, and we've known how 
to do that for a long, long time, since Manhattan Project days.
    So the issue, then, was the fuel rods. North Koreans took 
the fuel rods out, actually against the wishes of the IAEA. 
They took them out prematurely, and they stacked them, when 
they took them out, into metal baskets that they made, and 
essentially stacked 40 of these fuel rods into one basket, and 
then they put all these baskets in a pool of water, in a very 
deep pool of water. And the reason that you do that is that the 
other thing that's produced when you fission the uranium are 
fission products--and that is, when the uranium atoms split, it 
creates two other elements. The result of those fission 
products is that those things are very hot, radioactively, 
meaning they have deeply penetrating radiation, and so you have 
to shield that fuel, that spent fuel. Now, with time, that 
radioactivity will decay. That's another reason why you put 
these things in a pool, let them radioactively decay for a 
while, so that they're somewhat easier to handle.
    Now, these things had been sitting in the pool from 1994 to 
2002. However, the United States, as part of Agreed Framework, 
said, ``What we we're going to do is to do this safely.'' And 
taking a bunch of magnesium-clad uranium fuel rods and dumping 
them into a pool is not a good idea, because the magnesium does 
not do well with water. It tends to oxidize, corrode. Corrosion 
can lead to fracture of the fuel rods, and then you've got a 
significant radiation problem. And so the United States had 
agreed, and it sent out a team--Department of State, Department 
of Energy--to help the North Koreans re-can these fuel rods, 
all underwater, into U.S.-built stainless-steel canisters. They 
would first have water, water would be extracted, backfilled 
with an inert gas, and then the hope was that within those 
canisters this fuel then can sit for a long, long time. And 
then, in addition, to make sure that it's secure, the U.S. also 
built a structure that would allow this thing to be monitored; 
and it was, by the IAEA. So they actually put seals in place 
and had cameras in place. And we saw the cameras, but they were 
disconnected when the inspectors were asked to leave in 
December of 2002.
    So that was the key issue, what happened to those fuel 
rods. Now I'll get to the answer--so we walked in, with 
appropriate protective clothing. The chief engineer took us up 
to the observation platform. We looked into the pool. First 
thing is that none of the structure that had been built--so-
called poles and lock-down plates--for the verification was 
there anymore. That was gone. Not in sight.
    Second is, when we looked into the pool, there was a metal 
grid to separate these--I should have said the U.S. canisters--
there were 20 fuel rods in each stainless-steel canister. those 
were over half a meter long and about 10 to 12 inches in 
diameter, or so. They were stacked in, two high, into this 
grid, so that they would be nicely separated, down deep in the 
pool, the pool being, from what I read, somewhere between five 
and seven meters, so over 20 feet, deep.
    We looked in, and many of the gridded areas were empty. 
There were no canisters. And once upon a time, they were all 
full. Some of the canisters had their lids off, and there 
didn't seem to be anything in there. And some of them were 
still there, closed.
    So our hosts showed us this, took us back out in the 
conference room and said, OK, look, the fuel rods are gone. 
And, you know, in typical scientific fashion, I said, well, 
some of them appear to be gone, but how can I tell that they're 
all gone? And so they thought for awhile, then said, well, 
suppose you go back in and you pick one at random that's 
closed, and we'll open it for you? I said, that's a pretty good 
test. So we went back in, they did all of the operations, 
picked up this canister, left it in the water, moved it to a 
work station, opened it up, brought the light over, I looked 
in, and there were no fuel rods.
    I also had a chance to look around the back--there was a 
back side of the pool--and all of the observations then were 
consistent with the fact that the fuel rods are gone. Now, 
quite frankly, I can't guarantee--it turns out there were--
like, three of these canisters held some small bits and parts 
of broken fuel rods, and whether one of those is still in the 
second stage, somewhere at the bottom, that's possible. But, 
for all intents and purposes those fuel rods are gone.
    Senator Biden. There's 8,000 fuel rods----
    Dr. Hecker. So they're out of the pool.
    So I asked them, of course, what did you do with them? They 
told us. They said, we reprocessed them. And we not only 
reprocessed them, but we reprocessed them to make plutonium 
metal. I'll come back to why that's significant. And I asked 
them all kinds of questions, how often did you ship these out? 
How did you ship them out? The bottom line is, all of their 
answers were straightforward, and they were all technically 
sound.
    So then the next issue, OK, what did you do with the fuel 
rods? So they took us to what they called the radiochemical 
laboratory. We would call it a reprocessing facility. This is 
the place where you take these spent fuel rods, you chop off 
the ends of the magnesium cladding, and then you do a lot of 
chemistry. And you just dissolve everything in hot nitric acid, 
and then you begin, through magic chemistry, separating out the 
different elements. First thing you need to do is, you have to 
get these nasty fission products out. Those are the things that 
are really hot----
    Senator Biden. Radioactive things.
    Dr. Hecker [continuing]. That have penetrating radiation. 
Because, as I'll get to in a moment, by the time you get to the 
uranium or the plutonium, it also has radiation, but it's not 
very penetrating radiation, so it's a very different situation.
    So this first part, you have to do in what are called ``hot 
cells.'' They're heavily shielded, and then remotely operated 
through manipulators. So what they did is, they took us up to 
the--this building is a huge building, six-story building--took 
us up to the third floor, where they said, we will walk you 
through the observation corridor. You can look into the hot 
cells. But, by the way, we began that processing in January, 
mid January 2003, and we finished in June, end of June 2003, 
and we ran everything through. And so the facility is not now 
operating because there are no more fuel rods at this moment to 
process, but you can take a look at it. And so we did.
    So we looked at all the different stations, where they 
explained, in detail, the chemistry of how you go through and 
you extract, by reprocessing, the plutonium. And they said they 
use what's called the standard PUREX process. That was actually 
developed during Manhattan Project days, principally, 
initially, at Oak Ridge, and then applied, very much so, at 
Hanford. PUREX just stands for plutonium uranium extraction 
process.
    So we went through all of that. But then we would have 
gotten to the interesting part, which is, once you get the 
fission products out, how do you make the plutonium, and what 
form of plutonium do you make? As I said, because of the 
difference in radiation level, you do that in glove boxes. 
Glove boxes are different than hot cells. In glove boxes, you 
actually stick your arms in, through gloves, and you work with 
the plutonium directly.
    Senator Biden. You're looking through a clear glass.
    Dr. Hecker. And so you're looking through glass--they're 
stainless-steel glove boxes, compared to a remotely operated 
hot cell.
    OK, they said, well, we can't show you those. That wasn't 
part of their authorized tour. And they looked at me--I had 
asked lots of questions--they said, OK, now we've demonstrated 
that we did this reprocessing. And, again, I said, well, you 
know, really, you haven't. What you've shown me is that you 
have the facility, you have the equipment, you appear to have 
the capacity, and you have the technical know-how, how to do 
this. And, by the way, from the facility, you know, there's no 
question that it was an industrial-scale reprocessing facility. 
But, of course, I could not tell whether it operated yesterday 
or whether it--well, yes, probably that's true, that it was not 
operating yesterday, but whether it operated a week ago or 6 
months ago.
    So they took us in a conference room. When I expressed my 
skepticism, they said, well, would you like to see the product? 
And I was, sort of, taken aback, and I said, well, yes. You 
know, if you have the product to show, that would be one step 
closer.
    So we're in the conference room, and they brought in a red 
metal box, opened that up, and inside was a white wooden box 
with a slide-off top. They opened that up, and inside, were two 
glass jars, sort of like jelly jars, with a screw-on lid, 
tightly sealed. And they said, this first one has 150 grams of 
oxalate, plutonium oxalate powder, certain chemical form of 
plutonium, which is one of the steps along the route, after 
you've extracted out the uranium and before you get to, sort 
of, a stable plutonium product. So oxalate is a step along the 
way. And it was a greenish powder.
    The second jar, they said, well, that's the product, that's 
plutonium metal in this jar, and they said, it's 200 grams of 
plutonium metal, so kind of a fifth of a kilogram, or something 
close to half a pound, so reasonably substantial.
    Now, plutonium is very dense. If you think lead is heavy or 
dense, plutonium is, sort of, 50 percent heavier than lead, 
depending on what particular form of plutonium you have.
    So they covered that back up. Actually, along the way, they 
told us a little bit about the plutonium, I think trying to 
impress us that it was plutonium, because I asked what the 
density was. They told me between 15 and 16 grams per cubic 
centimeter. That's something that I do know something about. 
And so I raised my eyebrows, because to me that tells me right 
away what phase the plutonium is in, and the director added 
right away, ``it's alloyed,'' which it turns out is something 
that you have to do to the temperamental plutonium in order to 
make it manageable. To be able to cast it or to be able to 
shape it into anything, you have to add something. ``Alloy'' 
means you add an additional chemical element, which changes the 
structure of the plutonium.
    So they had all of that right, took it back out, and said, 
OK, now we've demonstrated our plutonium--and they often like 
to say ``our deterrent.'' And I said, well, you know, 
actually--I looked at it very closely, and it looked like it 
could be plutonium. I looked at the metal. It was a peculiar 
shape that I, to this day, have not figured out why, and that 
is a funnel shape, thin-walled--and I describe the dimensions 
in my testimony--and I looked at the surface of that, and it 
was consistent with plutonium that had been cast recently. And 
they actually told me, they said, ``this plutonium was cast 
from our most recent campaign, and it's the scrap piece from a 
casting.'' And the surface of the plutonium was, sort of, dark 
gray, blackish, rough surface, because it--they said, from the 
casting, which typically means that one uses graphite molds, 
and so it has, sort of, a rough appearance. So it looked OK.
    They took the box back out, and I said, well, look, you 
know, being a scientist, I'd still like to get one step closer 
to being able to identify it. And I should have said, at the 
beginning, both of us said that this was not an inspection. I 
didn't bring an inspection team. I didn't bring any monitoring 
instruments. We were there at their invitation. So I tried to 
do the best with what I had. Having handled a lot of plutonium 
in my lifetime, I knew, getting back to what I mentioned 
earlier, that plutonium does not have penetrating radiation, 
and in fact we have observed plutonium, at times, if we want to 
look at its structure, by putting Saran Wrap over the top of 
the plutonium to take a look at it and bring it outside. You 
have to do that very carefully, but you can do it. Inside a 
heavy glass jar, a heavy-walled glass jar, that plutonium is 
not going to do anything to you. And in spite of the popular 
belief that plutonium is the most dangerous substance in the 
entire world, that's just not true.
    So I thought, well there are two things I could do, so I 
asked them to bring the plutonium back in. I offered to my 
colleagues to have them leave, since they may not be as 
comfortable with handling the plutonium. They chose not to 
leave, although they did stand back, I must say. So I then 
said, there are two things I can do. I can try to hold the jar 
to see whether it's consistent with being heavy, because 
plutonium's so heavy, and, second, since it's radioactive, it's 
warm. And 200 grams, I knew, was, sort of, medium warm.
    Senator Biden. The jar would be warm.
    Dr. Hecker. The jar, of course.
    And so the director said, fine, but you'll have to wear 
gloves. And I was just going to ask for gloves, because the 
potential there is, the only potential health hazard is there's 
some contamination at the seal. So I said I would wear gloves.
    So they brought the plutonium back in. I said, I don't want 
the powder, but I'll take a look at the metal. And so I held 
the metal jar with this presumed plutonium inside, to take a 
closer look. And the first comment I made was, you know, it's 
not very warm, but it was warm. And the director said, right 
away, well, that's because the 240 isotopic content of the 
plutonium, one of the many isotopes of plutonium that gets 
grown into the reactor, as well as the high-octane 239 
plutonium that one uses either for reactor performances or for 
bombs, that tends to warm up the plutonium more, and he said, 
``it's low 240 content,'' which also turns out to be--the lower 
the 240, the better weapons grade it makes for the plutonium. 
And I--well, I asked them what 240 content, and he says, 
``well, I can't tell you that, but you can ask the IAEA.''
    Then the second thing, in terms of the weight, it seemed 
about right. And then we had one more test. When we finished, I 
put it back. I said, I'd like to get my gloves monitored, to 
make sure I didn't pick up any contamination. They brought a 
radiation detector. And, from everything I can tell--I didn't 
get a really close look, but it was a Geiger counter. As soon 
as the technician turned that on, the Geiger counter went off. 
And it would pick up the weak gamma rays from the plutonium. He 
said, right away, ``take this plutonium away from here.'' They 
did. The detector settled down. They monitored my hands, and 
they found nothing. It's not the greatest way to monitor for 
contamination, but it's a way.
    So the bottom line, then, is the following--and I've done 
much talking to our additional experts at Los Alamos, since, 
about what I saw, the color of the oxalate, the plutonium 
again, trying to figure out the shape of the plutonium, and the 
bottom line is the following, is that it certainly was 
consistent with the way plutonium looks. The oxalate, perhaps 
some weeks old, at least--the powder, that is--the plutonium 
metal, not very old, because it would have picked up an oxide 
in that air in the jar. But certainly the general weight, the 
shape, and the density one can calculate, everything is 
consistent with it being plutonium. And something in there was 
radioactive, because the probe went off. But I still cannot 
say, with a 100-percent certainty, what they actually showed me 
was plutonium, and I told them that. And I said, and even if I 
could say that it was plutonium, there is no way I could 
guarantee that this was from the 8,000 fuel rods or whether 
it's from something you had done before. The director 
immediately said, ``well, of course you can't.'' He said, 
``you'd have to know the americium to plutonium-241,'' yet 
another isotope of plutonium ratio. And, of course, it turns 
out he was correct. So they knew what they were showing me.
    So the bottom line, then, in terms of reprocessing--and I'm 
taking a long time to try to, sort of, anticipate your 
questions, to some extent--is the following. The fuel rods, for 
all intents and purposes, had been moved. They could be stored 
someplace else. We don't know that for sure. They put them back 
in their baskets. They could have stored them in a dry pit 
someplace. But, quite frankly, that would make no sense. It's 
also dangerous to do that, because a lot of those canisters had 
leaked again and there was water exposure, and they had 
previously been in the water. The magnesium alloy cladding 
corrodes. If you expose uranium, then you have a significant 
problem, in terms of contamination. So they could have stored 
them someplace else, but it doesn't make much sense.
    Now, as far as reprocessing, they said they reprocessed. 
They also told us they reprocessed the entire campaign to 
metal. Again, quite frankly, that doesn't make much sense, 
because metal is--plutonium metal is difficult to store. If you 
think steel rusts fast, plutonium rusts much faster than steel, 
especially with any moisture. And I'm told that the humidity in 
Yongbyon in the summer--by people who worked there--is 
horrendous. So it wouldn't make much sense to store it all as 
metal, but that's what they said that they did.
    And so they showed us something that's consistent with 
plutonium, but I couldn't tell, and I can't tell for sure that 
it came from this last campaign. What they did demonstrate is 
that they have the industrial-scale capability, the equipment, 
and the technical know-how to do all of that. I have more 
details in my testimony, but that's the bottom line on the fuel 
rods.
    The other three things will be much faster. Making more 
plutonium. We visited the reactor. The reactor is operating. 
That actually was known, because that one can spot by satellite 
by looking at the steam plume from the cooling tower, and we 
saw the steam plume. But we were in the reactor control room 
and in the observation deck of the reactor hall. It's 
operating. They claim that it's operating smoothly, that it's 
providing heat for their town that's been cutoff because of--
the heavy fuel oil shipment has been stopped--that that was 
crucial. However, it's also, at the same time, accumulating 
plutonium again. And so it is making plutonium as we speak. And 
the estimate--and that's all we can do without knowing their 
precise operating parameters--is that makes about 6 kilograms 
per year. And so since it's already been operating a year, 
another 6 kilograms has accumulated.
    Senator Biden. For that to run again, is there a need for 
another 8,000 fuel rods?
    Dr. Hecker. So what they did, they had another 8,000 fuel 
rods ready to go, and they inserted them as soon as the IAEA 
inspectors left, and they're running the reactor again, and 
they say they need to run the reactor to make heat. And I said, 
of course, you're making plutonium. They said, we're making 
heat and electricity. And I said, OK, you're making it as a 
byproduct, then, but you're making plutonium. They said, of 
course.
    So they're making 6 kilograms a year, and that will 
accumulate for the next whatever number of years. I asked them 
all sorts of question as to, how long do you feel good in 
running this current load of fuel? Do you have another load of 
fuel ready to go? The answer was, ``yes, we have one more 
complete 8,000 stack of fuel rods ready to go. We're not in any 
hurry to make more, but we have the facility to make more.'' So 
they are making 6 kilograms a year.
    Can they scale this up? That was the intent, by 
constructing the 50-megawatt reactor, which we can calculate 
would make about 56 kilograms a year, approximately. And, by 
the way, I state in my testimony that Dr. David Albright's 
book, along with O'Neill, Kevin O'Neill, was immensely helpful 
to me for preparing for this trip. And, indeed, that number is 
from his book. And then the 200-megawatt reactor, which is at a 
different site 20 kilometers away, that could make four times 
as much, you know, approximately 220 kilograms of plutonium a 
year.
    Now, the 50, we drove by, as I had indicated, and the 
answer on the 50 is the following--is that construction has not 
been restarted. The site looks like it's had no activity since 
the inspectors left.
    Senator Biden. The 50 had never been completed in the first 
instance.
    Dr. Hecker. It had never been completed. It was said to be 
within 1 year of completion. And here's one of the key 
observations. That reactor site is really a pitiful site. It's 
in bad state of repair. They have done nothing, there are no 
construction cranes. The building is cracked, the concrete is 
cracked, the exhaust tower of steel is heavily corroded, the 
stuff that's lying around outside is heavily corroded, there 
are no windows in the place. It looks like a deserted 
structure. And the director himself said it was really quite a 
pity as to what's happened to the site. When I asked, how long 
would it take you to get this back up, they said, that's under 
consideration.
    But the bottom line, there is no way that, very soon, they 
could scale up past this 6 kilograms a year, because that 
reactor is not ready, and it's not clear to me whether any of 
it is salvageable.
    The 200-megawatt reactor, the different site, we were not 
able to see. Again, what they told us is nothing has been done 
and, again, they are considering what to do with the 200-
megawatt reactor. I would expect it not to be in much better 
shape, but I cannot attest to that.
    And then, since they're making more plutonium again, 
accumulating, then the question is, could they reprocess it? 
And the answer is absolutely yes, because they have this 
capacity in the radiochemical laboratory. They could take those 
fuel rods out at any time and reprocess the plutonium, if they 
so chose.
    The next question was, that previous plutonium, how much 
did they have, and did they make nuclear weapons? And the 
answer to that is, I don't know, and we were not able to find 
out on this trip. I asked questions about the disposal sites 
and the disposal tanks, because there was significant 
controversy when the IAEA first went to Yongbyon and the North 
Koreans made a declaration of how much plutonium they had 
previously made. And because plutonium is radioactive, of 
course, it's feared; but because it's radioactive, you can also 
trace it. So you can trace these various isotopes in the 
disposal sites and know where they came from, and there were 
inconsistencies, which indicated the North Koreans have not 
been truthful about how much plutonium that they had previously 
made. In other words, they declared something like 60----
    Senator Biden. Prior to 1994?
    Dr. Hecker. Prior to 1992, actually. They had declared 
something like 60 grams of plutonium in the form of plutonium 
oxide. The estimates, generally, in David Albright's book, are 
potentially as high as 8\1/2\ kilograms, prior to 1992. And 
you've seen some of these estimates, intelligence estimates, 
that it's possible that North Korea could have made 
approximately 10 kilograms of plutonium. Again, Albright's best 
guess is about 8\1/2\.
    So we were not able to shed any light. I asked questions, 
as I mentioned, about the disposal sites, but they said we were 
not allowed to tour those, and they were not able to answer me.
    Then there's the issue of nuclear weapons, and that is, 
have they constructed any? And this was an interesting 
discussion, in that they, several times went to the final punch 
line and say, OK, look, now you have seen our deterrent, or, we 
have demonstrated our deterrent. And they used this word 
``deterrent'' in a very ambiguous fashion. Only a couple of 
times did they actually say, specifically--the Vice Minister of 
Foreign Affairs, Mr. Kim Gye Gwan, mentioned once specifically, 
``we have weapons of mass destruction,'' and I believe he was 
referring to nuclear weapons. And then twice there was an 
allusion to the ``arsenal.'' Like, at one time, when I made a 
comment, they said, so you want to see our arsenal, nuclear 
arsenal. But all the rest of the time, the word ``deterrent'' 
was used.
    So the last day, I had several discussions with Ambassador 
Li Gun and also with the Vice Minister, when they said once 
again that, OK, we've demonstrated our deterrent. And I went 
through the following, and I said, no, you haven't. Because, to 
me, it takes at least three things to have a deterrent. The 
first one is, you've got to make plutonium metal. The second 
one is, you have to make a nuclear device. And the third one 
is, you have to integrate that nuclear device, weaponize it, 
into a delivery system of some sort. And so I said, let's make 
sure that you understand what I'm coming away with. The first 
step, the making the plutonium metal, you've made a pretty good 
case, but I still--you know, as a scientist, I still can't say, 
with 100-percent certainty, but you've made a good case. 
Facilities are there, people are there, and so forth. The 
second case, you have shown me no facilities, you have not 
shown me anyone that I could talk to that would----
    Senator Biden. For the device.
    Dr. Hecker [continuing]. That is the device--that would 
give me any indication whatsoever that you can build a nuclear 
device. The response was, well, you know, you saw our people at 
Yongbyon. From their technical competence, can't you tell, and 
from the facilities? And I said, absolutely not. What I saw was 
pretty good reactor physics and a lot of good chemical 
engineering to extract the plutonium, and maybe a little bit of 
metallurgy. But the next step takes a lot of physics, a lot of 
computation. It takes a lot more metallurgy. It takes the 
understanding of high explosives. You have to do some high 
explosives non-nuclear testing, and then it takes the rest of 
the materials, and you have to know how to assemble it. And so, 
I had actually told them, late on Friday morning, look, bring 
me somebody that I can talk to about this so that I can get a 
better sense. By dinner that night, they told me, that it 
wasn't possible, there wasn't enough time to do so. And I said, 
well, that's fine, but you'll have to understand that then I 
did not see a deterrent, I'm not able to make a judgment as to 
whether you either have built nuclear weapons or you know how 
to build nuclear weapons. All I can say is, sort of, that first 
step. So that was the issue of the deterrent.
    Then the fourth and last point is the HEU discussion, this 
alternative route. In 1994, a principal issue was associated 
with the whole plutonium fuel cycle and the question of 
plutonium in nuclear weapons. And then, as you know, in 2002 
there was the issue, at a meeting of James Kelly, from the 
Department of State--the Assistant Secretary--with one of the 
Vice Ministers, Kang, from North Korea, and at this meeting the 
North Koreans allegedly had admitted to having a highly 
enriched uranium program, being confronted with that by James 
Kelly. And so this issue was raised by Jack Pritchard and also 
by Professor Lewis, and all I'll relate to you is just the 
shorthand version of what we were told. That is, Vice Minister 
Kim Gye Gwan said, ``we do not have a highly enriched uranium 
program; and, furthermore, we never admitted to one.'' Jack 
Pritchard pointed out that that's a matter of interpretation. 
Our people think you admitted, the--you don't think you 
admitted. But the key is that the United States acted on the 
basis of its intelligence, and Mr. Pritchard said, ``and I 
found that intelligence compelling. So, in the end perhaps one 
has to resolve this issue of what was said or not said, but we 
really acted on the basis of what we believe you have.''
    Professor Lewis tried to give the Vice Minister a chance to 
weasel out of this, is the best way I can say it, by saying, 
well, look, we're not sure what constitutes a program. Maybe 
you don't have a program, but maybe you have equipment. The 
Vice Minister said, ``we have no program, we have no equipment, 
and we have no technical expertise for enriching uranium. We 
decided to go the plutonium route some time ago, and that's 
where our expertise is.''
    Now, I can just relate to you what I heard. At that point, 
I did not ask questions. And, of course, we would not have been 
shown any facilities associated with highly enriched uranium. 
So I cannot judge. All I can do--the clarity that's come out of 
this is that whatever was said before, or not said, this time 
the Vice Minister left no ambiguity. He said they had none of 
those--no program, no equipment, and no people.
    So let me then summarize by saying, these observations that 
I've just gone through, not quite in that detail, but I shared 
those observations with the Vice Minister Kim Gye Gwan at the 
closeout dinner. And I said, Mr. Vice Minister, I want you to 
hear first--you showed us the facilities, and you had said at 
the beginning that I can form my own conclusions and take those 
back to my government. Here are my conclusions, as best as I 
know how. I also cautioned him, as I will caution you, as any 
scientist, when you get a bunch of information, you still have 
to analyze it. I've been doing that ever since I left North 
Korea, I will do that some more by talking to more people yet 
who were there in North Korea as part of the canning team, my 
own colleagues of Los Alamos, and other laboratories, to make 
sure that the conclusions I reach are with as little ambiguity 
as possible. And I told the Vice Minister that. I said, I've 
told you everything, because I want there to be no surprises to 
you when I go back, so you hear the same thing from me that our 
government's going to hear. I think he was a little 
disappointed that I wasn't able to be more definitive, but in 
the end, the bottom line was, he said, look, I respect what you 
said. Tell them what you told me. Don't add anything, don't 
subtract anything, and that is the way we left it.
    So my thought, then, was also the importance of this ``no 
surprises'' is that obviously I couldn't answer all the 
questions. It was not an inspection team. And, quite frankly, I 
hope there is a return opportunity. And the only way that you 
can do that is to build some trust and some respect in this 
process, and I wanted them to know that I was going to do this 
in as fair a way and give as fair an analysis as I possibly 
could.
    So I hope that there is a followup, in that at least a 
reduction of some of the ambiguity will facilitate a diplomatic 
solution, and that there will be a peaceful solution to the 
nuclear crisis on the Korean Peninsula. And then, of course, 
that's the reason that I went. I also would say the role of the 
scientist is such that should we somehow have a solution of a 
freeze or denuclearization, the scientists will have to 
implement, and then the scientists will have to verify and 
support the diplomatic process, and so I thought this was a 
good opportunity for a scientist to take that first little step 
along the way.
    So thank you for being so patient for such a long 
presentation, but I wanted to lay it out as clearly as I could.
    Thank you, Mr. Chairman, Senator Biden.
    [The prepared statement of Dr. Hecker follows:]

   Prepared Statement of Dr. Siegfried S. Hecker, Senior Fellow, Los 
          Alamos National Laboratory, University of California

VISIT TO THE YONGBYON NUCLEAR SCIENTIFIC RESEARCH CENTER IN NORTH KOREA

    Mr. Chairman, distinguished members of the Committee, I am honored 
to share with you my report of a rather unexpected and extraordinary 
visit to the Yongbyon Nuclear Scientific Research Center in North Korea 
(the Democratic People's Republic of Korea). I will submit a written 
statement for the record and summarize my observations this morning.

                               BACKGROUND

    I visited the Democratic People's Republic of Korea (DPRK) and the 
Yongbyon Nuclear Scientific Research Center as part of an unofficial 
U.S. delegation led by Professor John W. Lewis of Stanford University. 
Professor Lewis is an Asian scholar at Stanford, specializing in China 
and North Korea. Professor Lewis' visit was part of his ongoing dialog 
with officials of the DPRK concerning the North's nuclear program. He 
has visited the DPRK ten times since he began this dialog in 1987. He 
last visited the DPRK just before the official six-party talks in 
Beijing last August. DPRK officials invited him to return. When they 
indicated that they may allow him to visit the nuclear facilities at 
the Yongbyon Nuclear Scientific Research Center, he contacted me to 
accompany him to provide scientific expertise. Since I work for the Los 
Alamos National Laboratory, which is operated by the University of 
California for the Department of Energy, I requested and received the 
necessary U.S. Government approvals for travel to China and the DPRK. I 
have known Prof. Lewis for approximately 15 years. We have collaborated 
on other global security issues.
    Joining our delegation at Prof. Lewis' invitation was Charles L. 
(Jack) Pritchard, Visiting Scholar at the Brookings Institute and 
formerly the U.S. special envoy for DPRK negotiations. In addition, two 
Senate Foreign Relations Committee experts on Asian affairs, Mr. W. 
Keith Luse and Mr. Frank S. Jannuzi, had separately planned a trip to 
the DPRK. They joined our delegation in the DPRK and participated in 
our visit to the Yongbyon Nuclear Scientific Research Center.
    The host organization for our visit was the DPRK Ministry of 
Foreign Affairs. Ambassador Li Gun accompanied us during the entire 
visit. Vice Minister Kim Gye Gwan met with us on three separate 
occasions. In addition to the visit to the Nuclear Scientific Research 
Center, Prof. Lewis had arranged other meetings with DPRK officials to 
cover economic, military, and science issues. Mr. Luse and Mr. Jannuzi 
arranged some additional meetings on their own. I will restrict my 
written statement to the areas of my expertise, namely the nuclear 
issues. More specifically, I will focus on what we learned during the 
visit to the Yongbyon Nuclear Scientific Research Center.

    DPRK STATEMENTS AND MOTIVATION TO SET THE CONTEXT FOR THE VISIT

    Vice Minister Kim [Gye Gwan] indicated that they were very 
interested in resuming the six-party talks. The DPRK made a proposal on 
Dec. 9, 2003 to freeze its nuclear activities and received no response 
from the United States. Vice Minister Kim indicated that they have just 
repeated this proposal and this time Secretary Powell responded 
positively. [The following quote from Secretary Powell appeared in AFP, 
January 7, 2004: ``This is an interesting step on their part, a 
positive step, and we hope that it will allow us to move more rapidly 
to six-party framework talks. I am encouraged, I am encouraged by the 
statement the North Koreans made.'']
    Vice Minister Kim stated, ``The most reasonable way to proceed] is 
to have simultaneous action steps. . . . The U.S. says it will give us 
a security assurance if we dismantle our nuclear program. We say it 
differently. The first step would be a freeze of the present [DPRK] 
nuclear activities. You will see how important a freeze will be when 
you are at Yongbyon. This means there will be no manufacturing, no 
testing, and no transferring of nuclear weapons.''
    Vice Minister Kim stated, ``We view the delegation's visit to 
Yongbyon as a way to help contribute to breaking the stalemate and 
opening up a bright future. We will not play games with you. We have 
invited you to go to Yongbyon. The primary reason for this is to ensure 
transparency. This will reduce the assumptions and errors. . . . This 
visit can have great symbolic significance.''
    ``We want you to take an objective look, and we will leave the 
conclusions to your side. This is why the inclusion of Dr. Sig Hecker 
is so significant.'' Mr. Pritchard stated that we are unofficial and 
that we are not an inspection team. Kim continued, ``Hecker's presence 
will allow us to tell you everything. This is an extraordinary approval 
by us. . . . We, too, emphasize that you are not making an inspection. 
But, because we are allowing this visit, we will provide you enough 
access to have good knowledge.''
    Vice Minister Kim indicated that based on the U.S. actions in 
November 2002, the DPRK decided that the Agreed Framework was no longer 
in its interest, so it terminated the IAEA [International Atomic Energy 
Agency] inspections and withdrew from the NPT. The DPRK decided to 
operate the 5MWe reactor and resume reprocessing of plutonium for 
peaceful nuclear activities. He stated, ``It is the only way to keep 
the spent fuel rods safe.'' He added, ``At the same time, the hostile 
U.S. policy had been intensified. So, we changed our purpose and 
informed the U.S. that the plutonium that was to have been used for 
peaceful purposes would now be used for weapons. Originally, we had 
wanted to keep the reprocessed plutonium in a way we could store it 
safely. Then, we changed the purpose in order to strengthen our 
deterrent.''
    Vice Minister Kim added that the DPRK wants a peaceful resolution 
of the nuclear crisis. They want a denuclearization of the Korean 
Peninsula. He emphasized that the DPRK has been very flexible and very 
patient, adding, ``I should note that the time that has been lost [in 
dealing with us] has not been beneficial to the U.S. side. With an 
additional lapse in time, our nuclear arsenal could grow in quality and 
quantity. The outcome has not been a success for the U.S.''
    I provide this political background to set the context for 
potential motivations for the DPRK decision to invite us to visit the 
Nuclear Scientific Research Center. They have publicly stated that they 
have reprocessed the fuel rods to extract plutonium and strengthen 
their ``deterrent.'' It appears they were concerned that the United 
States (and perhaps others) did not believe them. So, they may have 
invited us to provide independent confirmation of their claims.
    However, Vice Minister Kim also expressed a concern about their 
decision to invite us to Yongbyon. He stated: ``If you go back to the 
United States and say that the North already has nuclear weapons, this 
may cause the U.S. to act against us.'' At a later meeting, he returned 
to this concern by stating, ``We are concerned that the U.S. Government 
will use what you conclude [as a pretext] to attack us. The U.S. might 
claim that this visit proves that the DPRK has crossed a red line when 
it restarted the reactor. Can we be sure that the U.S. will refrain 
from action if it declares that we have gone beyond its red line--such 
as finishing of the reprocessing and the change in the purpose of the 
reprocessing [from peaceful safety-related reasons to making 
weapons]?''
    So, I believe the DPRK wanted to show us the Yongbyon Nuclear 
Scientific Research Center to verify that they had taken significant 
actions since December 2002 and to impress us with their nuclear 
capabilities. The Center leadership and its specialists were very 
cooperative within the boundaries of what they were authorized to show 
us. Nevertheless, DPRK officials had reservations about our visit and 
they recognized the risks involved. They obviously decided the 
potential benefits of our visit justified taking the risks.

                  MY MOTIVATIONS FOR GOING TO THE DPRK

    I explained to our DPRK hosts my decision to accept Prof. Lewis' 
invitation to join him on this trip. I have been concerned about the 
ambiguities associated with the DPRK nuclear program. I realize that 
some of the ambiguities may be deliberate. However, ambiguities often 
lead to miscalculations, and in the case of nuclear weapons-related 
matters, such miscalculations could be disastrous. So, I had hoped that 
as a scientist I could help to bring some clarity to the DPRK nuclear 
situation by visiting the Yongbyon Nuclear Scientific Research Center.
    I also stated that I believe the role of scientists (and I should 
add engineers) is very important to the diplomatic process. I see three 
important roles. First, to bring clarity to the issues so as to 
facilitate a diplomatic solution to the nuclear crisis. Second, if a 
diplomatic solution is found, scientists must help to implement any 
solution such as a freeze or eventual denuclearization. Third, 
scientists will be crucial to help verify any such solution. So, it is 
my hope that my visit might be a small step in this direction.

  LOGISTICS OF THE VISIT TO THE YONGBYON NUCLEAR SCIENTIFIC RESEARCH 
                                 CENTER

    On Thursday, January 8, 2004, all five members of our delegation 
visited the Center, which is near the town of Yongbyon, roughly 100 km 
north of the DPRK capital of Pyongyang. We were accompanied by 
Ambassador Li Gun, an official from the General Bureau of Atomic Energy 
and a security escort. We were greeted by Professor Dr. Ri Hong Sop, 
Director of the Nuclear Scientific Research Center. The Center reports 
to the General Bureau of Atomic Energy. Also present at our 
introductory briefing were Choi Ku Man, Assistant Director of the 
Center, Li Yong ho, Safeguards Section Head, Kim Haik Soon, Senior 
Center Researcher, Pak Chang Su, Center Researcher.
    At the Yongbyon Nuclear Scientific Research Center, Director Ri 
Hong Sop] toured us through the following facilities:

  <bullet> The Experimental Nuclear Power Plant (the DPRK name for what 
        we call the 5 MWe [5 megawatt electric] reactor). We were 
        toured through the control room and the observation area for 
        the reactor hall. This facility is inside the first security 
        area of the Yongbyon facility. Our guide was Chief Engineer of 
        the facility, Li Song Hwan.

  <bullet> The spent fuel storage pool building next to the 5 MWe 
        reactor, also guided by Chief Engineer Li Song Hwan.

  <bullet> Drive by (twice) of the 50 MWe reactor site. Inside the 
        second high-security area of the Yongbyon facility.

  <bullet> Radiochemical Laboratory--3rd floor corridor that allowed 
        for viewing of the hot cell operations through shielded glass 
        windows and a conference room. (This facility is also inside 
        the second high-security area). Our guide was Chief Engineer of 
        the Radiochemical Laboratory, Li Yong Song.

  <bullet> Guest House for introductory and wrap-up discussions with 
        Center facility leadership.

    Our hosts drove us from Pyongyang to the Yongbyon facility. We left 
the hotel at 8:30 a.m. and returned shortly before 7:00 p.m. We spent 
from 10:30 am to 5:15 p.m. at the facility.
     observations from the visit: what we were told and what we saw
    I will present my observations for each facility. I will first 
summarize what we were told by the Center leadership (shown in italics) 
and then summarize my observations (in regular font). The director and 
the two chief engineers each stated that it was U.S. actions that 
forced the DPRK to take steps to resume nuclear operations.

The 5 MWe reactor
    They stated that they have restarted only the Experimental Nuclear 
Power Plant (the 5 MWe reactor). The plant was restarted in February 
2003. It now is operating smoothly at 100% of its rated thermal power. 
They are producing electricity and heat from the reactor now for their 
town. The reactor is the main source of heat for the town now that the 
10,000 metric tons (tonnes) of heavy fuel oil supplied annually to 
their region (as part of the 500,000 tonnes agreed to in the Agreed 
Framework) has been cut off.

    We confirmed that the 5 MWe reactor is operating now. We were shown 
the control room and the reactor hall. All indications from the display 
in the control room are that the reactor is operating smoothly now. The 
steam plume emanating from the cooling tower [visible both in the 
morning and afternoon] confirmed operation. However, we have no way of 
assessing independently how well the reactor has operated during the 
past year.

    The length of time the reactor is expected to operate with the 
current load of fuel depends on how the situation with the United 
States develops. They do not have safety concerns about running the 
reactor for a long time [implying years]. They stated that some of the 
operational problems experienced previously have been corrected. 
However, they are prepared to reprocess the current fuel at any time.

    We commented to our hosts that in addition to producing electricity 
and heat the reactor is also producing new plutonium. Best estimates 
are that under current reactor operations approximately 6 kg of 
plutonium is produced annually in the spent fuel.\1\ The reactor may 
currently contain approximately 6 kg of plutonium in the spent fuel 
rods, and it will continue to produce an additional 6 kg each year 
assuming the reactor operates efficiently.
---------------------------------------------------------------------------
    \1\ David Albright, Kevin O'Neill, editors. ``Solving the North 
Korean Nuclear Puzzle,'' ISIS Reports, The Institute for Science and 
International Security, Washington, D.C., 2000.

    They stated that have one more charge of fuel for the reactor 
fabricated now. The fuel fabrication facility is partially operational 
and partially under maintenance. They are in no hurry to fabricate more 
fuel since the two bigger reactors under construction are not close to 
---------------------------------------------------------------------------
operation.

    We did not have the opportunity to visit the fuel fabrication 
facility. However, these comments are consistent with previous U.S. 
estimates. In previous years, the fuel fabrication complex was reported 
to be making fuel elements containing about 100 tonnes per year of 
uranium. The complex is believed to have produced enough fuel for the 
initial loading of the core for the 50 MWe reactor under construction. 
Moreover, the nominal capacity was appreciably larger.\1\

50 MWe reactor
    They told us that construction stopped in 1994. They stated that at 
that time it was within one year of completion. Nothing has been done 
since. They are currently evaluating what to do with the reactor.

    We drove past the 50 MWe reactor site twice. We confirmed that 
there is no construction activity at this site. There were no 
construction cranes on site. The reactor building looks in a terrible 
state of repair. The concrete building structure showed cracks. The 
steel exhaust tower was heavily corroded, as was other steel equipment 
on the site. The building was not closed up and resembled a deserted 
structure. The NSC director expressed his great dismay about the 
deterioration of the facility because of the eight-year freeze. This 
reactor is much more than one year from completion now. It is not clear 
how much of the current structure can be salvaged.

200 MWe reactor at Tacheon (this reactor site is 20 km from Yongbyon)
    They stated that construction also stopped in 1994. They are also 
evaluating what to do with the reactor.

    This reactor location is at a different site. We were not able to 
assess the current situation.

Spent fuel storage building
    They stated that they removed all 8000 fuel rods from the spent 
fuel storage pool and shipped them to the Radiochemical Laboratory 
(plutonium reprocessing facility) and reprocessed them [to extract the 
plutonium]. The fuel rods were taken out of the pool in Korean 
containers (metal baskets) and placed in specially shielded shipping 
casks. During the removal of the fuel rods they found that about half 
of the U.S. canisters had leaked during storage. But they claimed not 
to have experienced major problems getting the spent fuel rods out of 
the pool and transporting them in special casks by truck daily to the 
Radiochemical Laboratory for reprocessing.

    These are the spent fuel rods that the DPRK had removed from the 5 
MWe reactor after it ceased operation in 1994 as part of the Agreed 
Framework. In 1995, a few months after the Agreed Framework was signed, 
preparations for the canning began. The process turned out to be quite 
involved and was not finished until June 2000. During this time, the 
United States Department of State and Department of Energy (supported 
by the Pacific Northwest National Laboratory and the Nuclear Assurance 
Corporation) worked jointly with the DPRK to package these rods in 400 
U.S. supplied stainless steel canisters to store safely (with dry inert 
gas inside the canisters) in a deep pool of water (for radiation 
shielding) to allow the radioactivity level of the rods to decrease 
with time. This facility was fitted with various devices and seals by 
IAEA inspectors to ensure that the fuel rods would not be tampered 
with. However, the IAEA inspectors were dismissed by the DPRK in 
December 2002. Only DPRK personnel have had access to the Nuclear 
Scientific Research Center since that time.
    Our initial look into the spent fuel pool showed that the locking 
plates and associated structures that the U.S. Spent Fuel Team had put 
in place after the canisters (loaded with the 8000 fuel rods) were 
inserted into the pool were gone. We immediately confirmed the fact 
that all fuel rods were no longer in the pool because many of the 
canisters were missing and many were open. The building was not heated 
and we found a thin sheet of ice on the pool surface. When I expressed 
concern that some of the canisters were still closed, they took the 
extraordinary step of allowing me to pick one at random and open it 
[all done under water in the pool] to demonstrate that there are no 
fuel rods remaining, even in the closed canisters. The randomly 
selected canister did not contain any fuel rods (it initially contained 
20). This and other observations convinced me that the spent fuel pool 
is empty; the fuel rods are gone. It is possible that they moved the 
8000 fuel rods to a different storage location. However, such storage 
would represent a serious health and safety hazard. [During the tour of 
the Radiochemical Laboratory, I asked if we could visit the Dry Storage 
Building, which serves as the port of entry for the fuel rods into that 
laboratory, they said that it was not available for a tour because 
there was no activity and there were no workers in the building.]
Radiochemical Laboratory
    They stated that they reprocessed all 8000 spent fuel rods in the 
Radiochemical Laboratory in one continuous campaign, starting in mid-
January 2003 and finishing by the end of June 2003. They stated that 
their capacity in the Radiochemical Laboratory is 375 kg uranium per 
day (they said they worked four 6-hour shifts around the clock). They 
later added that the reprocessing capacity of the facility under normal 
operating conditions is 110 tonnes of spent uranium fuel per year. 
Therefore, they were able to finish the current campaign of 50 tonnes 
of spent fuel rods in less than six months. They told us that we would 
tour the corridor next to the hot cells in which the reprocessing 
occurs. The campaign is complete; the facility is not operating now. 
Everything has been cleaned up and there is no radiation hazard in the 
corridor.

    At the Radiochemical Laboratory we confirmed that they possessed an 
industrial-scale reprocessing facility. The facility appeared in good 
repair. They demonstrated the requisite facilities, equipment, and 
technical expertise required for reprocessing plutonium at the scale in 
question. They use the standard PUREX (plutonium uranium extraction) 
process for separating plutonium from the fission products and uranium 
fuel. They answered all our technical questions about the reprocessing 
chemistry very competently. We were not able to see the glove boxes 
used for the final plutonium purification and production. They 
indicated that these were downstairs and not part of today's tour. In 
his book, Albright stated that five glove boxes were used during this 
process to produce plutonium dioxide product. He also reported that one 
or two glove boxes may have been removed before inspectors were 
permitted on site.\2\ These boxes could presumably have been used to 
process plutonium dioxide the typical plutonium product from the 
reprocessing operation] into metal and to cast or shape plutonium 
metal. Based on our tour we are not able to confirm or deny that the 
facility operated during the first half of 2003.
---------------------------------------------------------------------------
    \2\ See D. Albright and K. O'Neill, Reference 1.

    They stated that the Radiochemical Laboratory was built through 
their own efforts. They began construction in 1986 and the main parts 
were completed by 1990. At that time they ran a ``hot test'' of the 
facility with 80 fuel rods and natural uranium rods to extract 60 grams 
---------------------------------------------------------------------------
of plutonium.

    Albright reported that the hot test involved 86 fuel rods 
irradiated in the 5 MWe reactor combined with 172 fresh fuel rods. He 
also reported that in 1992 the DPRK presented plutonium oxide 
containing about 62 grams of plutonium to the IAEA inspectors. However, 
the total amount of plutonium actually processed by the DPRK before 
IAEA inspections began in 1992 is still strongly disputed.\2\

    When asked about the disposition of the waste stream, they stated 
that the waste from the most recent reprocessing campaign was mixed in 
with the waste from the ``hot test'' of the 80 fuel rods processed in 
spring of 1990.

    We were not able to visit the waste facilities and, hence, cannot 
confirm this statement. Even if we had toured the facility, we could 
not make a judgment without sophisticated sampling and measurements of 
the nuclear wastes. However, this type of information is important for 
tracing the reprocessing history of the facility.

    They stated that they initially intended to run the fuel cycle for 
civilian purposes (which means they would have stored the plutonium 
product as plutonium dioxide) but because of the hostile U.S. actions, 
they reprocessed the entire campaign to plutonium metal. They stated 
that this processing was done in the Radiochemical Laboratory by 
installing some glove boxes that were not present during IAEA 
inspections. It took them three months to install the equipment and 
prepare it for the plutonium metal processing step.

    We were not able to see the glove boxes for the final plutonium 
operations. However, their comments indicated that they had glove boxes 
for plutonium metal production ready to go. This indicates that they 
had experience making plutonium metal before the IAEA inspections began 
in 1992. Albright \3\ estimated that the 8000 spent fuel rods in 
question could yield between 25 and 30 kg of plutonium metal.
---------------------------------------------------------------------------
    \3\ See D. Albright and K. O'Neill, Reference 1.

    Although we could not see the plutonium glove box operations, they 
took the extraordinary step of showing us the ``product'' from what 
they claimed to be their most recent reprocessing campaign. In a 
conference room following the tour, they brought a metal case that 
contained a wooden box with a glass jar they said contained 150 grams 
of plutonium oxalate powder and a glass jar they said contained 200 
---------------------------------------------------------------------------
grams of plutonium metal for us to inspect.

    The glass jars were fitted with a screw-on metal lid and were 
tightly taped with transparent tape. (The plutonium's alpha-radiation 
is easily stopped by the glass jar). The green color of the plutonium 
oxalate powder is consistent with plutonium oxalate that has been 
stored in air for some time. The plutonium metal was a thin-walled 
(approximately \1/8\-inch thick) funnel (approximately 2-inch diameter 
at the base and 1-inch diameter at the top, approximately 1\1/2\ inches 
high) that they claimed to have been scrap from a casting from this 
reprocessing campaign. When asked about its density, they responded, 
``between 15 and 16 g/cubic centimeter and that it was alloyed [a 
practice common in plutonium metallurgy to retain the d-phase of 
plutonium which makes it easier to cast and shape]. The metal surface 
and color were consistent with moderately oxidized plutonium metal from 
a casting (I believe it could not have been in the jar for a period of 
many weeks because it did not show any loose oxide powder). I tried to 
get a feel for the density and heat content of the alleged plutonium 
metal by holding the glass jar in a gloved hand. The glass jar (very 
thick walled) was reasonably heavy and slightly warm (importantly, 
however, it was definitely not cold as was everything else in this 
building). The bottom line is that with the rather primitive tools at 
hand I was not able to definitively identify the purported metal and 
the powder as plutonium. It was radioactive, however, because a 
radiation probe (which appeared to be a Geiger counter [Geiger Muller 
detector]) registered a count when turned on near the wooden box 
containing the glass jars. With a few relatively simple tests, we would 
be able to positively identify the product as plutonium metal, but that 
was not possible to do during this visit.
    Furthermore, even if we could confirm that the product we were 
shown is plutonium, we would not have been able to confirm that it came 
from the most recent campaign without additional, more sophisticated 
isotopic measurements that would let us identify the age of the 
plutonium. The director of the NSC confirmed this by stating, ``you 
would have to measure the americium to plutonium-241 ratio to determine 
its age.'' He was correct.

    When asked about the isotopic content of the plutonium, 
specifically its Pu-240 content, they stated, ``the plutonium-240 
content from this campaign is low, but we are not authorized to tell 
you. The IAEA knows, you can ask them.''

    We were in no position to assess the isotopic content of the 
plutonium produced or that shown to us.

    They also stated that the plutonium metal was alloyed, but they 
were not authorized to tell us what alloying element was used [they did 
add, you know what it is, and we do it the same].

    We were in no position to tell whether or not the plutonium metal 
shown to us was alloyed. However, the fact that it was not cracked and 
that their specialists claimed that the plutonium had a density between 
15 and 16 grams/cubic centimeter is consistent with plutonium alloyed 
with approximately 1 weight percent of gallium or aluminum. A 
calculation of the rough dimensions and weight is also consistent with 
these values. However, the uncertainty in my observations is very 
large.
    Mr. Luse asked about a concern of yours Mr. Chairman; that is, the 
security of their nuclear materials. Director Ri responded, ``Be at 
ease with this problem. I am not authorized to give you an explanation 
on this, but we feel certain that the protection and safety--the 
security--are good.''

    We were also told that the effects of another freeze or decision to 
denuclearize would have devastating effects on the work force. Director 
Ri indicated that all of his people, including he, would have to look 
for new jobs.
     other observations and comments related to the nuclear issues
The DPRK ``deterrent''
    During follow-up discussions with Ambassador Li and Vice Minister 
Kim in Pyongyang, they stressed that the DPRK now has a nuclear 
deterrent and that U.S. actions have caused them to strengthen their 
deterrent--both in quality and in quantity. Ambassador Li inquired if 
what I had seen at Yongbyon convinced me that they had this deterrent.
    I explained to both of them that there is nothing that we saw at 
the Yongbyon Nuclear Scientific Research Center that would allow me to 
assess whether or not the DPRK possessed a nuclear deterrent if that 
meant a nuclear device or nuclear weapon. We found that both in our 
visit and in previous declarations by the government of the DPRK that 
the term ``deterrent'' was used in a very ambiguous manner.
    I explained that I view a ``deterrent'' to have at least three 
components: 1) The ability to make plutonium metal, 2) the ability to 
design and build a nuclear device, and 3) the ability to integrate the 
nuclear device into a delivery system. What we saw at Yongbyon was that 
they apparently have the capability to do the first. However, I saw 
nothing and talked to no one that allowed me to assess whether or not 
they have the ability to design a nuclear device. And, of course, we 
were not able to assess the integration into a delivery vehicle. 
Moreover, during additional discussions I cautioned that ``deterrence'' 
might have worked between the United States and the Soviet Union, two 
equally armed nuclear superpowers under rather predictable 
circumstances. The concept of nuclear deterrence may have little 
meaning for the U.S.-DPRK situation. I asked Ambassador Li in the late 
morning of the last day of our visit if I could meet individuals who 
could talk to me in some detail about their ``deterrent'' in the spirit 
that I had just described. He said he would try, but that evening told 
me that the time was insufficient to make such arrangements.
Highly-enriched uranium issue
    In the Foreign Ministry, we discussed the contentious issue of 
DPRK's supposed admission on October 4, 2002, to having a clandestine 
highly enriched uranium (HEU) program in violation of the letter and 
spirit of the 1994 Agreed Framework. There is a controversy about 
whether the DPRK admitted to having such a program at a meeting with 
U.S. officials. The disagreement concerns a difference between what 
DPRK officials believe they said and what U.S. officials believe they 
heard. DPRK officials provided us with a copy of the Korean text of 
what Vice Foreign Minister Kang Sok-ju said at the meeting. Regardless 
of how this issue is eventually clarified, one will still have to deal 
with the facts.
    During our meeting, Mr. Pritchard stated, ``The key issue is the 
intelligence that makes the United States believe that the DPRK has an 
HEU program. In the U.S., there is the widespread view that the 
complete, verifiable resolution of this HEU issue is now mandatory. 
This is a practical issue, and there must be a multilateral discussion 
to resolve it.'' In response, Vice Minister Kim Gye Gwan stated that 
the DPRK had no HEU program. Upon further questioning he stated that 
the DRPK had chosen the plutonium path to a deterrent. It had no 
facilities, equipment or scientists dedicated to an HEU program, 
adding, ``We can be very serious when we talk about this. We are fully 
open to technical talks.''

                           CONCLUDING REMARKS

    Mr. Chairman, I would like to summarize my observations based on 
our visit to the Yongbyon Nuclear Scientific Research Center and 
discussions in Pyongyang.

  <bullet> The 5 MWe reactor has been restarted. It appears to be 
        operating smoothly providing heat and electricity, while also 
        accumulating approximately 6 kg of plutonium per year in its 
        spent fuel rods.

  <bullet> The 50 MWe reactor construction site appears to have seen no 
        activity since the IAEA inspectors were instructed to leave in 
        2002. The reactor and the construction site look in a bad state 
        of repair. It would require a major construction program to 
        finish the reactor.

  <bullet> The spent fuel pond is empty; the approximately 8000 fuel 
        rods have been moved.

  <bullet> The DPRK claimed to have reprocessed all 8000 fuel rods to 
        extract plutonium metal during one continuous campaign between 
        mid-January 2003 and end of June 2003. The 8000 fuel rods are 
        estimated to contain up to 25 to 30 kg of plutonium metal. We 
        could not definitively substantiate that claim. However, the 
        Radiochemical Laboratory staff demonstrated that they had the 
        requisite facility, equipment and technical expertise, and they 
        appear to have the capacity to do so.

  <bullet> It is possible that they moved the 8000 fuel rods to a 
        different storage location. However, such storage would 
        represent a serious health and safety hazard.

  <bullet> We were shown what was claimed to be a sample of plutonium 
        metal product. I was not able to definitively confirm that what 
        we saw was actually plutonium metal, but all observations I was 
        able to make are consistent with the sample being plutonium 
        metal. However, even if the sample were plutonium metal, I 
        would not have been able to substantiate that it was plutonium 
        from the most recent reprocessing campaign. Such a 
        determination requires more sophisticated measurements.

  <bullet> In the foreseeable future, the DPRK can produce 6 kg of 
        plutonium per year in its 5 MWe reactor. It easily has the 
        capacity to reprocess the spent fuel at any time to extract the 
        plutonium. It also has the capacity to reload the reactor with 
        fresh fuel for a second and subsequent reloading. It is not, 
        however, in a position to increase the rate of plutonium 
        production much beyond 6 kg per year without a major 
        construction project at the 50 MWe or 200 MWe reactor sites, 
        something that would be difficult to do clandestinely.

  <bullet> Officials of the DPRK Ministry of Foreign Affairs claimed 
        that the DPRK had weapons of mass destruction. They believe 
        that they provided us with evidence of their ``deterrent.'' At 
        Yongbyon, they demonstrated that they most likely had the 
        capability to make plutonium metal. However, I saw nothing and 
        spoke to no one who could convince me that they could build a 
        nuclear device with that metal, and that they could weaponize 
        such a device into a delivery vehicle. We were not able to 
        arrange meetings with DPRK staff who may have such expertise or 
        visit related facilities.

  <bullet> Officials of the DPRK Ministry of Foreign Affairs also 
        stated categorically that the DPRK has no program for enriching 
        uranium. Moreover, they claim to have no equipment and no 
        scientific expertise to do so. We were not able to substantiate 
        these claims.

    Let me close by stating that I shared these conclusions with our 
DPRK hosts before my departure. I told them that my observations still 
have uncertainties. I may be able to reduce some of the uncertainties 
through discussions with other U.S. specialists, with additional 
analysis, and through peer review. I intend to do so and write a more 
comprehensive technical report in the future. The response of the DRPK 
officials was quite positive although they had hoped that my 
conclusions would be more definitive. They asked me to report my 
observations as I presented them.
    Finally, Mr. Chairman, I found the trip to be remarkable. Our DPRK 
hosts were most courteous and cooperative. I would like to acknowledge 
the Albright/O'Neill book on the Korean Nuclear Puzzle, the Report from 
the Department of State/Department of Energy Spent Fuel Canning Team, 
and discussions with several of my colleagues at Los Alamos, all of 
which helped me to prepare for this visit. I hope that our findings 
will contribute at least in some small way to a resolution of the 
current nuclear crisis and the eventual denuclearization of the Korean 
Peninsula. Thank you for giving me the opportunity to share our 
findings with you.

    The Chairman. Well, thank you very much, Dr. Hecker. We 
appreciate your laying it out specifically and step by step, so 
that there is no ambiguity in our understanding of this very 
complex situation.
    Now, let me proceed by indicating that a satisfactory 
resolution of the six-power talks is going to require full 
verification, and opportunities for full verification, that, 
the nuclear possibilities--that is, either weapons, metal, 
facilities, so forth--can be inspected, and continuously so. 
You have indicated, very clearly, that in your conversations 
with the North Koreans, they denied having another program--
that is, the uranium route--and that they chose, they say, the 
plutonium route. Regardless of the ambiguities, in terms of 
their response to Secretary Kelly last year, we have to 
understand that that's the way that it is.
    Obviously, the United States and hopefully others will 
still be interested. Are there other facilities, other than 
Yongbyon, where you have now observed what you've observed, 
whether they be enriched uranium facilities, plutonium, or 
anything else that has to do with weapons of mass destruction? 
The question is verification, obviously, at Yongbyon, which 
IAEA performed for 8 years, but, likewise, other situations 
that may be unknown to us. Can you give us any guidance as to 
how we ought to proceed? In other words, as this committee 
asked questions of Secretary Kelly or others who may come 
before our committee--because I've indicated we're deeply 
interested in the six-power talks and their progress--what 
should we ask, or what should we suggest? What is a reasonable 
position--not only reasonable, but a safe one--for the United 
States, as we proceed down this trail?
    Dr. Hecker. Mr. Chairman, that's a very good question, and 
obviously the $64,000 question, if we're going to achieve a 
verifiable final solution. Let me try to answer in the 
following way. First, to split the plutonium and the uranium 
issues.
    On the plutonium, it is possible to verify what goes on at 
Yongbyon, in my opinion. And actually, the IAEA did a very good 
job of that. And particularly since the IAEA, because of the 
lessons of Iraq during the first gulf war and what was found 
afterward, had dramatically changed its approach to inspection 
and verification. They have become much, much more aggressive. 
Before, it was a matter of inspecting declared facilities. 
Well, you know, that's, sort of, a slam dunk. Undeclared 
facilities are the real issue, and that's what you asked. And 
they have developed many techniques that can be used to go 
after undeclared facilities.
    At Yongbyon, I think that this is doable. At the other 
potential sites--you know, the North Koreans are reputed to 
have 15,000 tunnels. You know, they told us that 85 percent of 
their countryside is mountainous, and so they have, presumably, 
15,000 tunnels. They could squirrel away various facilities in 
places. But with the additional protocol, is what the more 
vigorous inspection campaign of the IAEA is called, I still 
think, on the plutonium side, that if North Korea cooperates at 
all, allows proper onsite visits around the countryside, there 
are things that can be monitored that would give us pretty good 
assurance. Again, never a 100 percent, but I would say quite 
good.
    The enriched-uranium story is different. If a country 
cooperates--example being South Africa; that was a terrific 
example of how with the cooperation of a government one can go 
in and really get the sense that, yes, they've done everything 
possible and they have now taken the weapons out and the whole 
complex out. The other example is Iraq before the first gulf 
war. They were completely uncooperative. They hid everything.
    The enriched uranium is really difficult. The signature, as 
such, is much smaller, much more difficult to find, and that 
will be almost impossible, without some cooperation from North 
Korea. So that one is very, very difficult to do.
    The Chairman. Well, let me ask about the course of your 
estimates of the metal. You have, I think, correctly pointed 
out that after the plutonium is taken off the rods and comes 
into the oxide form or the metal form--the metal, as you 
suggested, because it was slightly warm, might be the best 
weapons grade. You made some estimates that the 8,000 rods were 
at work for 4 to 6 years, and during that time, 6 kilograms a 
year adds up to 25 or 30, or so, of kilograms. Still, the 
connection, to move from the metal to the pit of a nuclear 
weapon or to whatever construction, is something that hasn't 
been demonstrated. Obviously North Koreans wanted you to have 
an impression of a ``deterrent,'' and used that word a number 
of times. Nor has the delivery mechanism for a weapon been 
demonstrated, although obviously tests of missiles by North 
Korea have been observed. They have been spectacular, and so 
has their export of this technology to others. Yet the 
connection of the three is of the essence in this situation.
    Having said all of that, obviously the speculation prior to 
your visit has often been to try to divide these kilograms into 
how many kilograms it takes to make a bomb--whatever kind of 
bomb, whatever kind of delivery, whatever kind of system--and, 
therefore, people have come up with two, three, four, five, 
six. As you suggest, the 8,000 new rods in this 5-megaton 
facility, or megawatt facility, are going at it, and so maybe 
another 6 kilograms has been produced during the past year, or 
even just as we're sitting here, to be divided by whatever the 
divisor is, so that the estimates continue to escalate.
    Try to give us some context of the deterrent. Were the 
North Koreans trying to say to you that you have seen the 
deterrent? You were responding, as I heard you, ``No, I 
haven't, not yet.'' In other words, please describe these 
connections of device and connections of delivery.
    Now, my question would be, having rebutted that, some would 
say, well, this is still very dangerous material, and you've 
indicated that is true. What can you do, with very dangerous 
material, short of building a pit for a weapon or having a 
weapon of a size that it could fly out on a missile or on a 
flatbed truck, for that matter, in a cruder form? In other 
words, as far as you saw it, what are the worst results that 
could occur from use by the North Koreans or proliferation of 
what you saw, the metal in the jar. If it were sent to somebody 
else, in the jar or whatever form, what could they do with it?
    Dr. Hecker. Well, you asked a very involved and complicated 
question, and let me see how well I can answer that.
    First you asked a basic arithmetic question. What does it 
mean to have 6 kilograms a year, and 25 to 30 kilograms? You 
noted, I'm sure, in my testimony, that I never converted that 
to number of weapons.
    The Chairman. I noticed.
    Dr. Hecker. And there are a couple of reasons for that. One 
is, when I say it from Los Alamos, that's a classified number. 
There are lots of other people, including many officials here 
in the U.S. Government, that have made a connection, and they 
can say that. And, in fact--so what I'm going to do----
    Senator Biden. To be clear, you mean if you were to say how 
many weapons could be produced from 25 to 30, everyone in the 
world would know you knew exactly what was needed, and that's 
classified.
    Dr. Hecker. Right.
    Senator Biden. Is that what you're saying?
    Dr. Hecker. Right. And it also would give some indications 
perhaps----
    Senator Biden. No, I got it. I'm not asking you to do it. I 
just want to make sure people understand what you're saying.
    Dr. Hecker. That's correct. However, people make this 
conversion all the time, and it's OK for other people to make 
that conversion.
    Senator Biden. Right.
    The Chairman. Who don't know what they're talking about.
    Senator Biden. That's right.
    Dr. Hecker. Right. So I'm going to read you somebody else's 
conversion.
    The Chairman. Yes.
    Dr. Hecker. Here's a Congressional Research Service report, 
something close and dear to your heart, I'm sure, March 17, 
2003. Here, they talk about 7 kilograms of plutonium a year 
being made in the 8,000 fuel rods. And whether it's six or 
seven, you know, it depends on what sort of assumptions you 
make about their reactor operating. It says, and I quote, 
``About seven kilograms of plutonium annually, enough for the 
manufacture of a single atomic bomb annually.'' That's what 
they say. Then they go on and say the 8,000 fuel rods at 
Yongbyon, and I quote, ``into weapons grade plutonium, and 
produce five or six atomic bombs.'' OK? So that gives you a 
conversion by somebody else.
    From my standpoint, as I had indicated, if I give you a 
specific number, you know, that becomes classified. The other 
reason I can't do it, quite frankly, is, let's say--even in the 
classified session, you asked me, how many kilograms for a 
bomb? And I'd have to ask, what kind of bomb do you want? And 
it's like asking the question, how much steel do I need to make 
a car? And I'd have to ask, do you want a Ford Escort or a 
Hummer?
    And the answer is obviously very different.
    And so then, to get back to your question, he's----
    The Chairman. There's no evidence they've made anything, 
because you have indicated you haven't got to the conversion of 
this metal to a bomb or what have you.
    Dr. Hecker. There's still all this----
    Senator Biden. If they're like the South Koreans, they 
don't start making cars; there's too much competition.
    Dr. Hecker. So, at any rate, the bottom line is, what can 
you do with 200 grams, for example? The answer is, not much. As 
we discussed yesterday, and this, one can say in an 
unclassified setting, certainly one of the things that's 
received a lot of publicity lately is a so-called ``dirty 
bomb''--is you can take that plutonium and blow it up, with a 
conventional explosive, and spread it all over.
    Senator Biden. That's not a nuclear reaction. Would you 
make----
    Dr. Hecker. That's not a nuclear reaction.
    Senator Biden [continuing]. It clear what a dirty bomb is, 
versus the nuclear----
    Dr. Hecker. What you do is, you spread the plutonium, and 
then the result of that will be widespread panic, fear, and 
economic disruption. The people you'll kill are the people who 
are close enough to be killed by the high explosive. And, quite 
frankly, that's--for a country, or even for a terrorist, that's 
a terrible waste of plutonium, because there are many other 
isotopes that are used in industrial or x-ray sources or other 
things that you could spread that would not be as valuable, 
let's say, as plutonium.
    So a few hundred grams really don't do you much good, 
unless you save them up, into these kind of quantities, to 
where you can make a nuclear device. But then even the nuclear 
device--and this, I would have to tell you, again, in closed 
session--depending on how big a bomb, depending on how 
sophisticated, how you want to deliver it, whether you want to 
put it in a truck, or whether you want to put in on a bomber, 
or whether you want to put it on a missile, that requires 
different amounts of plutonium, different sophistication, and 
that's a whole different issue, and that's one that I would not 
discuss in this setting.
    The Chairman. I'll ask just one more question, then yield 
to my colleague.
    Senator Biden. Oh, no, this is good, keep going.
    The Chairman. Essentially, the North Korean officials you 
talked to were completely in denial of the HEU program. They 
said, we have no program, we have no weapons, we have no 
facilities.
    Dr. Hecker. The answer is, yes, that's correct. This is the 
Vice Minister Kim Gye Gwan.
    The Chairman. Now, do you have any idea how the ambiguity, 
to put it that way, exists? Very clearly, as you have stated, 
Secretary Kelly, in the fall of 2002, confronted North Koreans 
during his initial trip on this. Our intelligence, United 
States intelligence, informed the Secretary. He challenged the 
North Koreans. As I recall his testimony, in open session--they 
retreated for the evening and came back. Then late that night 
or the next day, they indicated, Well, yes, we do. What about 
it?'' in essence. In other words, they maybe issued sort of a 
challenge. At that point, negotiations, to say the least, 
didn't break down completely, but they were faltering badly. 
The difficulty of even reporting this back to Washington or 
anybody else was considerable, due to our lack of communication 
facilities in the capital city there. We used British 
facilities, or some other facilities, as I recall, just to get 
word that this momentous admission or statement had occurred.
    Your testimony today is essentially that that was 
ambiguous. Maybe our translation, what we heard, what they 
said, and so forth were ambiguous--because this is a very big 
issue, as you know. This is why I have asked about the 
alternative facilities, how verification can proceed with this 
totally unknown program, unknown location, unknown whatever is 
there, even if you pin down as specifically as you and the 
observers that were with you have done at Yongbyon. Can you 
give us any further enlightenment on that whole area?
    Dr. Hecker. As far as the verification is concerned, there 
are a few telltale things that one would look for, and that's 
what I imagine our intelligence community looked for. I have 
not received that intelligence briefing, and so I cannot 
address that, and I did not address that in North Korea. But I 
can relate to you what I heard the conversation to be, which 
addresses the issue of the ambiguity.
    And, again, I cannot formulate any judgment, because I 
wasn't there, and I haven't seen the text. But the conversation 
went something like this, is the--from the American side, you 
know, Mr. Pritchard was also there with Assistant Secretary 
Kelly, and they thought they heard, quite clearly, that the 
North Koreans had admitted such a program. The North Koreans 
use a lot of language, from what was said there, about having 
the right to have any weapons program that they would like, and 
that they have a much more powerful weapon. Then, later on, 
they said that that was the unity of their people, for example. 
And what they said is that they have a Korean-language 
transcript from their scribes, of the meeting, and that that 
transcript presumably shows that they never specifically 
admitted it, that there is some question of the ambiguity of 
the language used. And perhaps, again, that was very 
intentional ambiguity.
    Mr. Pritchard then said, ``Look, the only way to resolve 
this is, you have to get the scribes and the translators 
together, look at both texts, and see what the real situation 
is.'' That's where we are today. Professor Lewis does have the 
Korean-language text from the Korean scribes, and he's made 
that available, I believe, to the State Department in order to 
look at that issue.
    So that seemed to be the issue, that it was a question of 
interpretation, and I cannot state any more than that. That's 
what I heard.
    The Chairman. Very well.
    Senator Biden.
    Senator Biden. Thank you very much.
    I really do appreciate the detail you're going into for us. 
There's a number of things I'd like to talk about, but let me 
try to touch on a few in this hopefully first round. We have 
another 28 minutes--or 32 minutes here.
    Can you briefly, if you can, explain, not the North Korean 
program or any classified information, but if you're going to 
cause a nuclear chain reaction that causes a nuclear explosion, 
the big mushroom cloud, big or small, what the average America 
would talk about, the average person on this Earth would talk 
about--a nuclear explosion, which is a chain reaction that gets 
started--if you're going to start that chain reaction with the 
use of plutonium, in broad strokes, what is the mechanism, what 
are the physics of what has to happen to make it explode and to 
start this chain reaction? And how's that different with taking 
a couple pieces of highly enriched uranium and doing whatever 
you do to push those together, which I'm told is one of the 
ways to do it, to cause a nuclear reaction?
    The reason I ask the question is, I'm very concerned, we're 
all very concerned, about proliferation. And the key question 
the Senator asked was--we're told--and we use the phrase, even, 
many of us--that North Korea, having reprocessed plutonium, 
presumably, without certainty, becomes the plutonium factory of 
the world, there's a history of them dealing with terrorist 
organizations in the past on other fronts, they are 
proliferators of missile technology and other technology. And 
so the average Senator, the average policymaker, who's not an 
expert, the average American, probably thinks, my God, if al-
Qaeda gets that chunk that you had in that glass canister--that 
jelly jar, in effect--they could do great damage and cause a 
nuclear explosion to take place. So can you tell me, briefly, 
what are the physics that are required to start a chain 
reaction using plutonium, and how and if that differs from the 
physics required--or, no, that causes a nuclear chain reaction 
from the use of highly enriched uranium?
    Dr. Hecker. I will do my best. Let's start with the 
plutonium.
    The idea is that you want to put as many atoms of the 
fissionable isotope--the preference being 239 in plutonium, 235 
in uranium--you want to put as many of those atoms as close 
together as possible to get this chain reaction. If you do it 
slowly, and you can control the chain reaction, you have a 
nuclear reactor. If you want it to be an explosive, then you 
not only have to get them close together, but you have to do it 
very rapidly.
    So in plutonium--and the answer to your question is--those 
were answered back during the Manhattan Project days--and in 
real time.
    Senator Biden. Right.
    Dr. Hecker. The initial concept was, well, the best way to 
get those atoms closely together is that you take, let's say, 
two hemispheres and put them in a gun device and shoot them 
against each other, and that will bring two subcritical masses 
together close enough and fast enough that then they'll go and 
blow up and release that energy catastrophically.
    What it turned out--and, you know, the minds that were 
involved in the Manhattan Project were absolutely 
extraordinary, so they had thought all this through; but then 
what they found is, when they got the plutonium that was the 
reactor product, the initial plutonium had actually been made 
in very tiny amounts in an accelerator, the first stuff out at 
University of California at Berkeley, by Glen Seeborg and his 
colleagues. When the plutonium that was the reactor product--
they found, it had some of these other isotypes that I've 
mentioned before, and one of these isotopes gives up too many 
neutrons, so that when you're bringing the two masses of 
plutonium together first, the neutrons begin to trigger the 
chain reaction prematurely and it fizzles. So it still releases 
energy, but not in this catastrophic fashion. So the bottom 
line is, then, for plutonium, they said this gun assembly 
doesn't work, and they were in a real fix.
    And there was a gentleman by the name of Seth Neddermeyer, 
who developed what's now called the ``implosion concept.'' And 
the idea there is that you put two hemispheres together right 
away, but have subcritical mass, and then pack explosive around 
those hemispheres and light off the explosive so that it brings 
this enormous compressive force to bear on the plutonium, gets 
enough of those atoms close together and fast enough that then 
it would blow up catastrophically.
    So the plutonium is only good for this implosion device, 
and it's quite tricky to design the explosive and the lensing 
system to do this. And we, at Los Alamos and our colleagues at 
Livermore have spent lifetimes of people figuring out how to do 
that in the most efficient and effective way, to pack the least 
amount of plutonium in the smallest space and mass. And that's 
the plutonium.
    The uranium doesn't have that problem. So in a uranium, the 
gun assembly works, so you can take the two hemispheres of 
plutonium, shoot them together. That's a reasonably simple 
arrangement. You know, you take----
    Senator Biden. Highly enriched uranium.
    Dr. Hecker [continuing]. A gun barrel--it has to be highly 
enriched uranium. And as far--you could ask how much enriched. 
The IAEA classifies everything over 20 percent of the 235 
isotope as weapons grade, weapons usable. Of course, the more 
you have, the higher the octane, so to speak. If you have 90, 
93 percent highly enriched uranium, you need less of it.
    The light water reactor, just to go back to your earlier 
comments, that only takes 3 to 4 percent, because you're doing 
it in a controlled fashion.
    Senator Biden. Three or 4 percent, in the jargon, octane.
    Dr. Hecker. Enrichment, yes.
    Senator Biden. Yes, enrichment.
    Dr. Hecker. So the uranium, then, you can do in this gun 
assembled device, or the uranium will also work in the 
implosion device.
    Senator Biden. Right.
    Dr. Hecker. But you need more uranium. And so, most modern 
weapons, the material of choice is plutonium.
    Senator Biden. Plutonium.
    Dr. Hecker. However, if you're looking for the simplest way 
to make a bomb, and that was really the essence of your 
question, the way that I understood it----
    Senator Biden. Right. That's exactly right.
    Dr. Hecker [continuing]. Then clearly the highly enriched 
uranium is the simpler way. And it's interesting that North 
Korea chose the plutonium route to go to a bomb. On the other 
hand, you know, it's reported, at least, that Pakistan has 
taken the uranium route, India has taken the plutonium route.
    Senator Biden. I know you know the reason I asked the 
question, but I want to clarify it for the record, is that when 
we went into Afghanistan and defeated the Taliban, a journalist 
walked out of a safe house, I believe in Kandahar, with a 
diagram, a diagram of a rifle device that some scientists said 
was an attempt at figuring out how to build a nuclear device. 
There was word that two Pakistani nuclear scientists had met 
with either bin Laden and/or his principals, and off and 
running was the race as to what was al-Qaeda about, what were 
they trying to do. And this device that was depicted and was 
shown in, I think, U.S. News and World, or one of the papers, 
turned out to be something that most scientists said didn't get 
the job done, but the quest seemed to be moving down the road 
to figuring out to build a rudimentary crude nuclear device 
that would cause a nuclear reaction--not a dirty bomb that 
would spread radiation, but would cause the mushroom cloud, the 
heat, the wave, the implosion, et cetera.
    So the question that a lot of us have is, if our greatest 
concern is--and it's mine, I must tell you--is not whether or 
not North Korea added--if they have one bomb now, we don't 
know, but whatever they have--if they added two, three, four, 
five, six more nuclear devices? That concerns me, but it 
concerns me less than if the material they have, they could 
sell and/or export in a form that someone other than a nation-
state would find usable to construct a, quote, ``homemade 
nuclear device.'' Because this is not a classified session, I 
will not repeat what I told you yesterday, which your 
colleagues at all the laboratories had done, except to say that 
it is possible to build--this is not classified--to build, off 
the shelf, a rifle device, the thing that rams things together 
rapidly, without having patents or without having access to 
material that is off limits to someone. Now, what's off limits 
is, in very, very simplistic terms, sort of, the gunpowder that 
makes it go boom--that is, the uranium, highly enriched 
uranium, which, as you explained, if it's smashed together at 
sufficient speed, can create a nuclear reaction, chain 
reaction. That's the hard stuff to get.
    So the reason I asked the question is, if this material, if 
they have these--in effect, spheres of metal that are called 
plutonium, that are plutonium, metal--you know, turned into the 
metal form of plutonium--if that got exported to somebody, how 
much worry do we have about an al-Qaeda or a terrorist 
organization, as opposed to a nation-state with a much larger 
infrastructure, being able to take that, put it into a bomb, 
drop it in a truck, drive it up, or put it in the hold of a 
ship, and explode it when it's in New York Harbor or the 
Delaware River, whatever? That's the reason I asked the 
question. And I know you know that, but I want to make sure I'm 
articulating what I think a lot of average Americans wonder 
about, about how dangerous is this potential for proliferating 
a substance that is able to be turned into a nuclear weapon?
    And so it is harder, from a scientific standpoint, I 
believe, from what I've been told by some of your colleagues, 
to build a device that implodes plutonium and causes this 
nuclear reaction, than it is if you have highly enriched 
uranium, to cause that to be put in a circumstance where it 
causes a nuclear reaction. Is that--I know that I'm being 
general, as a layman here, but is that, in a generic sense, a 
fair statement, that you require more expertise, scientific 
expertise, and capability to build a nuclear device that was 
generated by plutonium than highly enriched uranium?
    Dr. Hecker. The answer to that is yes. And I'd like to go 
back and just pick up a couple of threads from what you said, 
because you explained the situation extremely well; there's 
just a couple of points I would like to emphasize.
    In order to make a device--let's say, whether rogue nation 
or terrorist--there are a few things that you need. First you 
need the knowledge of how to build this. Quite frankly, that 
knowledge, for primitive devices, is out there. All you have to 
do is go on the Internet. You know, that was developed 60 years 
ago, and so that's clearly understood. The knowledge is there. 
And so you see those drawings, and no matter how crude--you 
know, they could have done much better by looking on the 
Internet--the knowledge is there. You cannot stop that anymore.
    The second part is, you need the material. And the good 
news is, it's not easy to make plutonium, and it's not easy to 
enrich uranium. And thank God for that. However, Senator Lugar 
has fought the battle for the last 12 years trying to make sure 
that people don't steal this stuff, because that's, by far, the 
easiest. And I have worked under that umbrella for 12 years, 
working what we both considered was the biggest danger 12 years 
ago, when the Soviet Union broke up, and working this issue of 
Russian nuclear materials. And I know, Senator Biden, you have 
also made that a cause.
    Then the third piece is, can you fabricate it and put it in 
some sort of delivery vehicle? There, the answer to your 
question is, the uranium is a lot easier than the plutonium. 
Plutonium is not that easy. I mean, that's not easy to make in 
a garage someplace, for the terrorists. The uranium is easier, 
but still not an absolute slam dunk for a terrorist 
organization. For a nation like North Korea, in essence you 
can't make the assumption that they can't make a primitive 
device on the basis of everything else that one has seen them 
be able to do.
    So those are the issues. The key, without question, comes 
down to the nuclear material. That's why the 8,000 fuel rods 
was such a big deal.
    Senator Biden. Right.
    The Chairman. Senator Brownback, did you have questions for 
our witness?
    Senator Brownback. Yes, I do. Thank you, Mr. Chairman. And 
thank you for holding the hearing. I appreciate that.
    Dr. Hecker, thank you very much for your testimony. I've 
found it very interesting and specific, and I appreciated that 
and appreciate your information you're sharing with us.
    Before I get to the question I have, I want to make a brief 
statement myself. Over the break, I was able to travel to Japan 
and meet with a number of members of the families of abductees. 
These are Japanese families, Mr. Chairman, Senator Biden, that 
have been abducted by North Korea, were abducted by North 
Korea, that the North Koreans have admitted to. Apparently, 
there's a big difference between the number that are still 
missing and how many North Korea has admitted to abducting. But 
these are people that the North Koreans have admitted to 
abducting.
    And now, after finally 20 years, in some cases, of finally 
admitting that, yes, they abducted these family members, 
they're not allowing their children or spouses to come from 
North Korea to Japan to be with the people that were abducted, 
which is just mind-boggling, in my estimation, that having once 
admitted that you've kidnaped, now, a series of people, that 
you're not going to say, OK, we admit it. We're going to make 
this whole, and, here, you can go, and your family members with 
you. They won't let the family members leave to be with their 
family in Japan. And, instead, the North Korean Government is 
demanding that those who were abducted must come back to North 
Korea to get their family members before they can go to Japan. 
Which reminds me of Saddam Hussein's brother, or son-in-law, 
that went to Jordan, and Saddam said, ``Well, come on back, and 
we'll make everything right,'' and he didn't live to tell 
anything about it afterwards.
    And so the people who were abducted are not willing to go 
back to North Korea to get their family members, because they 
don't know if they're going to be able to make it out. And I 
think this is something we really ought to stand with the 
Japanese Government as pressing very hard. And this is 
absolutely ridiculous, uncalled for, to kidnap and then not let 
family members come out. And I met with these family members 
and spoke with them.
    The other thing, Mr. Chairman, I'd like to note and put 
into the record that applies to North Korea, this is an article 
from CNN's Web site yesterday on ``Food Aid to North Korea 
Stalls,'' a report out by Amnesty International \3\ about 
executions taking place because of people stealing food for 
their families to live--just horrific level of starvation and 
depravation continuing to take place in North Korea, estimates 
of over two million having died of starvation and from these 
political gulag systems since the mid 1990s, and that it 
continues today. And this is Amnesty International's report 
that's just out, another current issue regarding North Korea.
---------------------------------------------------------------------------
    \3\ For full text of the Amnesty International report, please go 
to: ``Democratic Republic of North Korea: Starved of Rights: Human 
Rights and the Food Crisis in the Democratic People's Republic of 
Korea,'' http://web.amnesty.org/library/index/engasa240032004
---------------------------------------------------------------------------
    [The CNN article referred to follows:]

                    [From CNN.com--January 20, 2004]

                   ``Food Aid to North Korea Stalls''

    Washington (AP)--American agencies are moving as quickly as 
possible to arrange for food aid shipments to North Korea, a U.S. State 
Department official said Tuesday after a U.N. agency said a lack of 
foreign donations is forcing a delivery cutoff.
    In December, the United States promised 60,000 tonnes of food to 
North Korea. According to the official, efforts are still under way to 
procure the commodities.
    In announcing the food aid cutoff to 2.7 million North Korean women 
and children, the U.N.'s World Food Program (WFP) said Monday aid 
promised by the United States, European Union and Australia could take 
up to three months to arrive.
    Aid shortfalls forced the WFP to start cutting food distributions 
in December to more than half of its 4.2 million ``core 
beneficiaries``--children, pregnant women and elderly people, the WFP 
said.
    Meanwhile, starving North Koreans have been publicly executed for 
stealing food and others have died of malnutrition in labor camps, 
Amnesty International said in a report released Tuesday.
    The human rights group urged the North Korean government to 
``ensure that food shortages are not used as a tool to persecute 
perceived political opponents.''
    The report--released in Mumbai, Indiaa at the World Social Forum, 
an international gathering of anti-globalization activists--records the 
chilling testimony of North Korean refugees interviewed in South Korea 
and Japan and interviews with international aid groups during 2002 and 
2003.

                           PUBLIC EXECUTIONS

    The report accuses the North Korean government of distributing food 
unfairly, favoring those who are economically active and politically 
loyal.
    ``Some North Koreans, who were motivated by hunger to steal food 
grains or livestock, have been publicly executed,'' Amnesty 
International researcher Rajiv Narayan told The Associated Press.
    ``Public notices advertised the executions, and school children 
were forced to watch the shootings or hangings,'' he said.
    Public executions were at their highest from 1996 to 1998, when 
famine gripped North Korea, the report said.
    North Korea's isolated Stalinist regime has relied on foreign aid 
to feed its people since revealing in the mid-1990s that its state-run 
farming industry had collapsed.
    The report appears to confirm fears of the United States and others 
that food supplies are being diverted to the military or given as 
rewards to supporters of North Korean leader Kim Jong Il.

    Senator Brownback. Two things, Dr. Hecker. One is, Mr. 
Hwang was here in Washington. He was the highest-level defector 
to come out of North Korea. He was the head of ideology. He was 
here 2 months ago. And then a staff member of mine has recently 
met with him again in South Korea. At the request of another 
Member of the Senate, I asked him this question in a private 
session, about, when we entered into the 1994 agreement for 
them to stop the nuclear weapons processing, did the North 
Koreans stop developing or attempting to develop nuclear 
weapons? Mr. Hwang's statement was, ``no.'' Matter of fact, he 
was then assigned to go to other countries to try to find 
materials--plutonium--to be able to make nuclear weapons with, 
after the agreement was signed.
    So the issue that you present and talk about, about a 
verifiable issue afterwards, is absolutely critical. We can't 
buy this dead horse twice, to go in and say, OK, they agree to 
stop their nuclear weapons development, and then going ahead 
and starting and finding another route into it. For us to be so 
foolish twice would be terrible.
    The second part is, I think you have to tie the human 
rights portfolio in with this issue of the weapons development, 
because we've got suffering, on the largest scale of anywhere 
in the world, taking place today in North Korea, and we just 
can't continue to turn a blind eye to that. As much as we may 
want to get at this nuclear piece that's here, which is 
critically important, Dr. Hecker--and your work and what you're 
doing and saying is important for us to be able to assess the 
validity of what they are putting forward, albeit--I mean, it 
sounds like there's a number of holes still here, that we don't 
have a good scientific assessment--we've got to get at that, 
but we cannot any longer deny the human rights portion of this, 
of the people that are suffering.
    And that's why I've put forward the North Korea Freedom 
Act, that before we would be involved in any sort of financing 
of an agreement here, that the North Koreans would say, here's 
the deterrent; we'll give it up, but we want this sort of aid 
from the United States. We've got to have that human rights 
portfolio in here, Mr. Chairman. I just think to do otherwise, 
we're going to let another few million people die in this 
situation, and when the country finally opens up, when North 
Korea finally opens up and we learn the level of depravation 
and death, I think we're going to go, ``my gosh,'' that we 
allowed that to happen.
    Dr. Hecker, we've heard from sources previously about other 
weapons of mass destruction programs. I presume the North 
Koreans would refer to this as deterrence. You've talked, at 
some length, on what you were able to see in the nuclear area. 
Were you shown, were you able to see, did you gain any 
information, did you get any insight on other weapons 
development programs in the biological or chemical field?
    Dr. Hecker. The answer is no. Certainly nothing we were 
shown would allow me to make any conclusions. In the 
discussions, they were never mentioned directly. The term 
``weapons of mass destruction'' was used only once, and I'm 
quite convinced that it was used in the spirit of nuclear. And 
then the term ``deterrent,'' whenever it was used, and they 
used it often, was clearly--in the discussions I had with them, 
``nuclear deterrent'' was meant. So the issue of other 
potential weapons of mass destruction--that is, chemical and 
biological--never came up in our discussions. I never asked 
that question, because that really was not part of my mission. 
It's also not my expertise.
    Senator Brownback, I'd also like to comment just a bit on 
the other things that you've mentioned. Of course----
    Senator Brownback. I want you to comment, but I want to 
followup on this. Did anybody----
    Dr. Hecker. Sure.
    Senator Brownback [continuing]. Else in your delegation 
bring up the issues of chemical or biological while you were 
present?
    Dr. Hecker. Not in my presence.
    Senator Brownback. OK. So there was no discussion, then, at 
any time, of what you heard, directly or indirectly, on 
chemical or biological.
    Dr. Hecker. That's correct.
    Senator Brownback. OK. Please proceed.
    Dr. Hecker. The issue of human rights, I cannot address 
that, because, quite frankly, I'm, sort of, a 1-month expert on 
North Korea, and so I don't have the background or capabilities 
to address that.
    The only thing I can tell you--Mr. Chairman pointed out, at 
the top of the hearing, that the two staff experts, Mr. Luse 
and Mr. Jannuzi, indeed, had that as part of their agenda of 
their meetings, and I know they had meetings, related to the 
abductees issue, with North Korean officials, and I know they 
planned to write that up, and I'm sure they'll be happy to tell 
you about those meetings. So that was covered by them, but not 
by me.
    And then the issue that you bring up of--the issue of 
verification, which, as you indicate, is a very important one, 
and Mr. Chairman asked that question. When it comes to HEU--
I've already pointed out that is highly enriched uranium--that 
will be very, very difficult. And then you've brought up, of 
course, another issue, and that is the question of stealing 
this material or getting it through some other mechanism, 
rather than producing it, which is, as I said, pretty difficult 
to do, and it leaves some signature. And, therefore, 
verification, quite frankly, North Korea would have to exhibit 
a very different level of openness than it has so far. So far, 
from everything I can tell, that country has really been 
buttoned up, and any verification would be difficult.
    The IAEA example was one where they took one facility, 
Yongbyon, and began inspections in 1992. Then, as part of 
Agreed Framework, they had 30 buildings under IAEA inspection. 
And for those buildings, from everything I can tell, they did 
an excellent job. But that's Yongbyon, and we don't know 
whether there was anything in the tunnels anyplace else, and so 
that verification would still be a challenge, and it would 
require some coordination and some opening up of North Korea, 
in my opinion.
    Senator Brownback. Dr. Hecker, I've appreciated and thought 
your testimony was very good and very specific, and I 
appreciate that.
    I'd just like to make the point, Mr. Chairman, in closing 
on my portion of this, is that as we move down the road in 
dealing with North Korea--and I know the focus is on nuclear 
weapons, and there is some wisdom to that, because if we have a 
narrow, specific focus, that's probably a target we can hit and 
get something done; administration probably looks so 
similarly--but I cannot support, and will not be supporting, us 
providing moneys to North Korea, or aid to North Korea, other 
than direct food aid to keep people from starving, but of other 
aid, unless we include the issues of human rights in this 
bucket of issues. I don't think it's right. I don't think we 
can, in the moral obligation that we have to the suffering 
people in North Korea, fail to include that set of issues in 
the ultimate discussions as we move on forward. And if the 
Congress is asked to fund or to supply aid of some form of 
support, as we've done in the past, as North Korea is demanding 
now, this issue just has to be dealt with. That country has to 
open up so those people can live and not die of starvation or 
be manipulated or trafficked or any number of issues. And I'm 
going to be pressing very hard for that particular issue.
    The Chairman. I thank the Senator. Let me make a short 
comment, after which I'll yield to my colleague and we'll 
conclude the hearing.
    As you pointed out, Dr. Hecker, and as I attempted to carry 
at the beginning of the hearing, the committee's oversight 
takes very seriously the human rights issues that Senator 
Brownback has mentioned; likewise, the humanitarian issues.
    Food. We've had testimony by Jim Morris, of the U.N. World 
Food Program, and his colleagues. And the United States has 
shouldered the majority of the burden, in terms of both money 
and responsibility for delivering relief. In the process, the 
United States tried to find out why many provinces of North 
Korea were not open to inspection by the United Nations, quite 
apart from the efficiency of the food situation. This is a 
serious issue.
    I think we have also realized that our responsibility is 
oversight. The Secretary of State finally will have 
responsibility, as a part of the six-party talks, and he has 
commended those for our negotiating posture. And we have not 
tried to substitute ourselves, but we are attempting at least 
to provide information to him, to the country, to ourselves, so 
that we will be in a better position to advise and consent, and 
to play our constitutional role.
    Now, just summing up from what I've heard you say, the 
North Koreans several times said, ``you have seen our 
deterrent,'' and they used the word ``deterrent.'' And you, of 
course, have offered the proper skepticism as to how much you 
had seen, but, nevertheless, the North Koreans--at least as I 
understood at the beginning--appear to have, as a single-minded 
devotion, the perpetuation of their state and a fear that there 
might be dangers to perpetuation of the state. A deterrent to 
those who might want to change that state is very much on their 
minds. One reason for which they might have invited Professor 
Lewis to come, is because the North Koreans did want to 
demonstrate to Professor Lewis and to you and Mr. Pritchard and 
to our Senate Foreign Relations staffers that there was a 
deterrent that we ought to be concerned about in our own 
calculations. Professor Lewis had been a visitor ten times, as 
you pointed out, and he then included you as an expert in these 
areas. As you pointed out, their portfolio was limited, and as 
you pressed the edges of that, you got either no responses or 
no people.
    At the same time, you stated to them, essentially, as I 
hear you, the testimony that you gave to us today. They were 
the first beneficiaries, at least, of your analysis, although 
it continues, as you pointed out, and may be refined as you 
speak with more of your colleagues. So there were no surprises, 
either way.
    I think this was a very valuable mission that you and your 
colleagues have performed, and we appreciate very much the 
opportunity and, even more so, your lifetime of work in this 
area, which has enriched all of our understanding today, 
including precisely what we were talking about, in terms of the 
developments, the weapons, the dangers of proliferation, these 
things that swirled off the North Korean project, but likewise, 
the war against terrorism.
    I thank you again, and I yield, for a concluding comment, 
to my colleague, Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Doctor, with your permission, since time does not permit 
now, I'd like to ask, in writing--I'm not going to make a lot 
of work for you here--a few questions about comparative 
expertise. You have significant experience, dealing with your 
Russian counterparts and Chinese counterparts. I'm wondering 
and want to know about how you, the people you ran into in 
Yongbyon and in Korea compare, if you can compare, to the 
expertise possessed by their counterparts in Russia and in 
China.
    Second, I think it's important for the record, at some 
point, we get from you and others an explanation from the 
scientists about this notion of being able to put a nuclear 
bomb on the top of a missile and fly it 8,000 miles, and why 
it's very difficult to do that with a nuclear weapon because it 
relates to weight. The heavier the nuclear weapon sitting on 
the nose of a missile, the greater capacity the thrust is 
needed to propel that missile, that bomb, that nuclear weapon 
in a direction, and why plutonium devices are--it takes great 
expertise to miniaturize these things, to get them so you have 
great explosive capacity and in the smallest package you can 
get it in. I think Fat Boy weighed tons, if I'm not mistaken, 
and, as you know, that was the bomb dropped in Hiroshima, and 
so on. So I'm going to ask you questions about that.
    And, last, I'm going to ask you, for the record, about how 
you produce highly enriched uranium, gas centrifuge systems, 
the degree of difficulty or the degree of ease with which that 
can be done. It's easier to hide; is it harder to do? Because I 
think that's part of the equation. We're going to have to be 
able to figure out when we're told things by the intelligence 
community and by the administration, in previous and present 
administrations.
    And the last point I'll make--and conclude with this at 11 
o'clock here, Mr. Chairman--is that I agree with the Senator 
from Kansas that human rights is vitally important. But my 
grandpop used to have an expression. I'd say something, I'd 
like to do this, this, this, and this, and my grandfather 
Finney used to say, ``Joey, I'm not sure the horse can carry 
that sleigh.''
    If we had the same standard of saying we would not deal 
with nuclear weapons, we would not deal with this overwhelming 
threat facing humanity until all other things were dealt with, 
then we wouldn't be in China right now, we wouldn't be dealing 
with China. We would have not dealt with Russia 25 years ago. 
That's not to suggest that we should not pursue, with every 
means available to us; but I hope we don't decide that because 
we can't settle all the differences, including human rights 
questions with regard to North Korea, we would forego, if it 
were possible, the prospect of the elimination of their nuclear 
capacity.
    Now, that's maybe a bridge too far, but I just want to make 
the generic point that sometimes this requires some discretion 
as to how you go about this process.
    And, Mr. Chairman, the report coming out from our joint 
staff will be soon, but I'm told, by Mr. Jannuzi, that there 
are eight family members of the former abductees living in 
North Korea, five living abductees are living in Japan. The 
eight family members are mostly in their 20s and only recently 
learned about their true Japanese origins. One of the questions 
that remains is whether or not these eight family members of 
the North wish to leave--I presume they do; I don't know--and 
that our staffs pressed very hard the North Koreans for them 
being able to leave. And that's not to suggest, in any way, 
there's not significant deprivation, significant starvation, 
significant brutality that exists in North Korea. There's not a 
single doubt in my mind about that, and I will work with the 
Senator from Kansas to try to deal with that issue.
    But I would sincerely hope we don't conclude that there was 
no benefit to the Agreed Framework. If we had time, I'd ask you 
what would have happened had there not been an Agreed 
Framework--where would they be now? And so I just think we 
should--we're going to have to take this, sort of, bite size, a 
piece at a time, in order to understand the whole relationship.
    But to the extent that we could eliminate and account for 
the plutonium already made into metal and/or already processed 
into, you know, an oxalate, to the extent we could shut down 
their capacity to continue to produce fissionable material, it 
would be a good thing, and that should be the immediate aim, in 
my view, of these six-way talks. But that's just one Senator's 
position.
    Thank you, doctor. It's been a great education for us, and 
we've called on you before, and, unfortunately for you, I'm 
sure we'll be calling on you again. Thank you very much.
    The Chairman. Dr. Hecker, do you have a final comment?
    Dr. Hecker. If I may, just apropos to the last discussions. 
I won't address this issue of how or if one couples human 
rights and nuclear-related issues, because, quite frankly, I 
don't have enough knowledge of the situation. But there is one 
comment that I want to make that's often forgotten, and that is 
that we must never forget the horrific consequences of nuclear 
weapons. Today we only have the distant, but stark reminders of 
Hiroshima and Nagasaki. But these weapons are weapons of a 
totally different type. When you release the energy of the 
nucleus, you're talking about a factor of millions compared to 
anything that can be done conventionally. So these weapons are 
instantly destructive. They're more powerful, by this factor of 
millions, than anything else. They're disastrous, both 
psychologically and physically.
    And I've spent a good part of my professional life dealing 
with the strengths of the Soviet Union, or the presumed 
strengths of the Soviet Union and their nuclear complex. And 
I've spent much of the last 12 years of my life dealing with 
the potential weaknesses of the new Russia and the issues 
associated with cooperative threat deduction; and now the last 
couple of years, dealing with these new problems, much more 
imminent and potentially much more dangerous, and that is the 
Pakistans, Irans, and North Koreas. And so, certainly, if I can 
say anything on this issue is, let's not forget just how 
devastating nuclear weapons are, how important it is to resolve 
these issues as quickly as we can.
    And I certainly, as a citizen of the United States, 
appreciate the effort of all of you on this committee to make, 
not only our country, but the world a safer place.
    Thank you, Mr. Chairman.
    Senator Brownback. Mr. Chairman, could I make one final 
comment on that? I appreciate that a nuclear weapon's a 
horrific thing. I hope we appreciate that two million people 
dying in North Korea off of a gulag or a political system or 
off of starvation is a horrific thing, and that we will press 
hard to do that, and that 200,000 people currently in a gulag 
system in North Korea is a horrific thing, and that we will 
press on that, as well.
    I understand how horrific a nuclear weapon is. There is 
already two million people that have died since the mid 1990s. 
Two million. We can't let that continue.
    Thank you.
    The Chairman. Well, thank you very much, Senator Brownback.
    Thank you, again, Dr. Hecker, and we look forward to 
staying closely in touch with you as our oversight continues.
    And the hearing is adjourned.
    [Whereupon, at 11:05 a.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
